<html>
<title> - LAW ENFORCEMENT: ARE FEDERAL, STATE, AND LOCAL AGENCIES WORKING TOGETHER EFFECTIVELY?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
    LAW ENFORCEMENT: ARE FEDERAL, STATE, AND LOCAL AGENCIES WORKING 
                         TOGETHER EFFECTIVELY?
=======================================================================

                             JOINT HEARING

                               before the

                 SUBCOMMITTEE ON CRIMINAL JUSTICE, DRUG
                       POLICY AND HUMAN RESOURCES

                                  the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                and the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2001

                               __________

                           Serial No. 107-116

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform







                       U. S. GOVERNMENT PRINTING OFFICE
82-174                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Christopher Donesa, Staff Director and Chief Counsel
                 Amy Horton, Professional Staff Member
                          Conn Carroll, Clerk
           David McMillen, Minority Professional Staff Member
    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DAN MILLER, Florida                  MAJOR R. OWENS, New York
DOUG OSE, California                 PAUL E. KANJORSKI, Pennsylvania
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                Bonnie Heald, Professional Staff Member
                          Mark Johnson, Clerk
           David McMillen, Minority Professional Staff Member

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
            R. Nicholas Palarino, Professional Staff Member
                           Jason Chung, Clerk
           David McMillen, Minority Professional Staff Member





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 13, 2001................................     1
Statement of:
    Dwyer, William, chief of police, Farmington Hills, MI........    49
    Greene, Joseph R., Acting Deputy Executive Associate 
      Commissioner for Field Operations, Immigration and 
      Naturalization Service.....................................    92
    Hutchinson, Asa, Administrator, U.S. Drug Enforcement 
      Administration.............................................    13
    King, Scott L., mayor, city of Gary, IN......................    28
    McChesney, Kathleen L., Assistant Director, Training 
      Division, Federal Bureau of Investigation, accompanied by 
      David Walchak, Deputy Assistant Director, Criminal Justice 
      Information Services Division, Federal Bureau of 
      Investigation; and Lynne Hunt, Special Agent in Charge, 
      Baltimore Field Office, Federal Bureau of Investigation....    68
    Nedelkoff, Richard R., Director, Bureau of Justice 
      Assistance, Office of Justice Programs, Department of 
      Justice....................................................    55
    Norris, Edward T., commissioner, Baltimore Police Department.    37
    Ramsey, Charles H., chief, Metropolitan Police Department....    43
    Timoney, John F., commissioner, Philadelphia Police 
      Department.................................................    39
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    10
    Dwyer, William, chief of police, Farmington Hills, MI, 
      prepared statement of......................................    51
    Greene, Joseph R., Acting Deputy Executive Associate 
      Commissioner for Field Operations, Immigration and 
      Naturalization Service, prepared statement of..............    94
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Hutchinson, Hon. Asa, a Representative in Congress from the 
      State of Arkansas, prepared statement of...................    16
    King, Scott L., mayor, city of Gary, IN, prepared statement 
      of.........................................................    30
    McChesney, Kathleen L., Assistant Director, Training 
      Division, Federal Bureau of Investigation, prepared 
      statement of...............................................    70
    Mueller, Robert S., Director, Federal Bureau of 
      Investigation, prepared statement of.......................   137
    Nedelkoff, Richard R., Director, Bureau of Justice 
      Assistance, Office of Justice Programs, Department of 
      Justice, prepared statement of.............................    57
    Ramsey, Charles H., chief, Metropolitan Police Department, 
      prepared statement of......................................    45
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     6
    Timoney, John F., commissioner, Philadelphia Police 
      Department, prepared statement of..........................    41


    LAW ENFORCEMENT: ARE FEDERAL, STATE, AND LOCAL AGENCIES WORKING 
                         TOGETHER EFFECTIVELY?

                              ----------                              


                       TUESDAY, NOVEMBER 13, 2001

        House of Representatives, Subcommittee on Criminal 
            Justice, Drug Policy and Human Resources, joint 
            with the Subcommittee on Government Efficiency, 
            Financial Management and Intergovernmental 
            Relations, and the Subcommittee on National 
            Security, Veterans Affairs and International 
            Relations, Committee on Government Reform,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 9:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the Subcommittee on Government Efficiency, 
Financial Management and Intergovernmental Relations) 
presiding.
    Present for the Subcommittee on Government Efficiency, 
Financial Management and Intergovernmental Relations: 
Representatives Horn, Schakowsky and Maloney.
    Present for the Subcommittee on Criminal Justice, Drug 
Policy and Human Resources: Representative Cummings.
    Present for the Subcommittee on National Security, Veterans 
Affairs and International Relations: Representatives Shays and 
Schakowsky.
    Also present: Representative Watson.
    Staff present: J. Russell George, staff director and chief 
counsel; Bonnie Heald, deputy staff director; Mark Johnson, 
clerk; Jim Holmes, intern, Subcommittee on Government 
Efficiency, Financial Management and Intergovernmental 
Relations; Chris Donesa, staff director; Amy Horton, 
professional staff member; Conn Carroll, clerk, Subcommittee on 
Criminal Justice, Drug Policy and Human Resources; Lawrence 
Halloran, staff director; Jason Chung, clerk, Subcommittee on 
National Security, Veterans Affairs and International 
Relations; David McMillen, minority professional staff member; 
and Jean Gosa, minority clerk.
    Mr. Horn. A quorum being present, this joint hearing of the 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations and the Subcommittee on Criminal 
Justice, Drug Policy and Human Resources, and the Subcommittee 
on National Security, Veterans Affairs and International 
Relations will come to order. We are here today to discuss the 
efficiency and effectiveness of the flow of information between 
Federal, State, and local law enforcement agencies. Interagency 
cooperation has always been an important factor in protecting 
the safety and security of this Nation, but the unimaginable 
events of September 11th and the ensuing biological attacks 
involving anthrax have drawn unparalleled attention to the need 
for a timely interchange of meaningful law enforcement 
information.
    On October 5th of this year, the Subcommittee on Government 
Efficiency, Financial Management and Intergovernmental 
Relations, which I chair, held a hearing on bioterrorism. 
During that hearing, Baltimore Police Commissioner, Edward T. 
Norris testified that following the September 11th attacks, 
neither his Department nor any other that was aware had been 
asked to contribute manpower toward following up on thousands 
of leads. In fact, weeks passed by before the Federal Bureau of 
Investigation's watchlist provided adequate descriptions of 
those who were suspected of participating in the devastating 
attacks.
    Following the October 5th hearing, FBI Director Robert S. 
Mueller pledged to increase the role of non-Federal law 
enforcement agencies and to share more information with State 
and local agencies. We are interested to hear about the FBI's 
progress in attaining these important goals.
    Commissioner Norris is with us again today and will update 
us on the progress. Commissioner, thank you for coming. We also 
want to examine the broader issue of effective law enforcement 
communication. Federal agencies such as the Immigration and 
Naturalization Service, the Drug Enforcement Agency, and the 
Department of Justice, the Bureau of Investigations of the FBI, 
control massive data banks of information. But how accessible 
is that information to the 650,000 police officers who protect 
our neighborhoods and roadways? Should we be doing more? 
September 11th reprioritized the agenda of this Nation and its 
Congress. The need for shared intelligence must rise above 
parochial interest at all levels of law enforcement. We cannot 
afford to do otherwise.
    I'm pleased to note that one of our former colleagues, DEA 
Administrator Asa Hutchinson, will lead off with our panel of 
witnesses after the various subcommittee chairs will have their 
opening statements.
    [The prepared statement of Hon. Stephen Horn follows:]
    [GRAPHIC] [TIFF OMITTED] 82174.001
    
    [GRAPHIC] [TIFF OMITTED] 82174.002
    
    Mr. Horn. I now yield to Mr. Shays for his opening 
statement. The gentleman from Connecticut.
    Mr. Shays. Good morning, gentlemen. Good morning witnesses 
and guests. For many Federal law enforcement and intelligence 
agencies, intergovernmental cooperation has been becoming a 
self defeating game of ``I've Got a Secret,'' in which critical 
facts and leads are hidden from those who most need to know. 
The quaint, insular habits of the past have proven inadequate 
to prevent the tragic events of the last 2 months. Protecting 
national security against dispersed global and deadly threats 
requires interagency cooperation and coordination on an 
unprecedented scale. Before the terrorists acquired the means 
to inflict catastrophic losses on our Nation and our people, we 
need to be assured of our first lines of defense.
    The eyes and ears of the intelligence community and law 
enforcement at all levels are seeing and hearing the same 
things. Critical data sharing between Federal, State, and local 
agencies today is often the product of good luck and the 
happenstance of personal relationships. Our current peril 
demands a more systematic collection and dissemination of the 
information needed to identify suspects or prevent known 
terrorists from entering the United States. Tripartite joint 
hearing demonstrates--this tripartite joint hearing 
demonstrates our commitment to unprecedented data sharing and 
the willingness to overcome artificial jurisdictional barriers. 
We look to our witnesses today to describe how they are 
overcoming current barriers to effective intergovernmental 
communication. I appreciate their being here.
    Mr. Chairman, I appreciate your having this hearing, and I 
look forward to hearing from our witnesses.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 82174.003
    
    Mr. Horn. I thank the gentleman and now yield to the acting 
member for the minority, Mrs. Maloney, and we're delighted to 
have you with us. It's like old times.
    Mrs. Maloney. Thank you, Mr. Chairman, and I, first of all, 
I want very much to welcome my colleague, Asa Hutchinson and 
congratulate him on his new post. You served with great honor 
in our body and we wish you all the best, and certainly to 
welcome all of the distinguished panelists and thank them for 
coming, and we have all personally changed since September 
11th, personally and as a Nation. Legislatively we've made 
improvements through the Patriot Act; however, I believe we 
need to maintain the current momentum and continue to improve 
our Nation to function at its absolute best.
    During the events of September 11th and the current threat 
of anthrax, we heard complaints regarding the lack of 
communication and information shared among law enforcement. I 
am here today to tell you that we must create a free flow of 
information in both directions. During a recent hearing of the 
Permanent Select Committee on Intelligence held in New York 
City, Mayor Giuliani pointed out that there are 600,000 sworn 
law enforcement in our country. We need to activate that 
immense local resource to work in concert with Federal law 
enforcement to be the on-the-street eyes and ears.
    Mayor Giuliani also praised the use of joint terrorism task 
forces [JTTF's]. The first JTTF was implemented in New York 
City. Mayor Giuliani stated that the JTTF provides an avenue of 
information sharing. But I believe that more importantly, it 
allows the multiple law enforcement jurisdictions to learn how 
each operates and the limitations that each are faced with. We 
have seen by the evidence of September 11th that the 
individuals who intend to harm our great country and citizens 
are the lowest of cowards. But they are also, unfortunately, 
very intelligent and very persistent. The other thing we know 
is that their attacks are spread out, not only geographically, 
but spatially.
    The attack in Africa occurred in August 1998. The U.S.S. 
Cole was attacked on October 13, 2000, and the attack on 
America occurred on September 11, 2001. Every event was 
carefully planned and carefully executed. We know that 
criminals and terrorists have also advanced in their use of 
technology using e-mail and multiple cell phone carriers.
    In the recently enacted Patriot Act, we have attempted to 
give law enforcement the tools they need. Now I am proposing 
that we ask law enforcement to organize and ban together to 
fight terrorism. I will soon introduce legislation that would 
increase the number of JTTF's in the country. We currently have 
56 FBI field officers with 35 JTTF's. We're almost halfway 
there, but we need one in almost every single field office and 
we need to provide the resources to local government so that 
they can have ample representation on the JTTF's.
    One of the things that I think we should do is see if we 
could deputize more people at the local law enforcement to have 
the powers to arrest INS violations, which seems to be a 
tremendous problem now and to also give the INS better computer 
capability so that local governments could tap into the INS 
computers. And I know from New York City that local law 
enforcement is stretched to its absolute fullest capabilities. 
We, the Federal Government, provide them with the needed 
resources. We need to give them more. We must deploy the 
600,000 eyes and ears. Our country's safety must be paramount. 
Thank you and I yield back.
    Mr. Horn. I thank the gentlewoman and Mr. Souder will not 
be with us. He is the other subcommittee chair that's very 
important with his drug and other situations.
    Mr. Cummings, do you have an opening statement?
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Horn. We're going to go pretty fast.
    Mr. Cummings. That's no problem but I did request this 
hearing and I want to thank the chairman for granting this 
hearing and I just will be very brief, but I do want to have a 
statement. Again I want to thank you, Mr. Chairman, for holding 
this hearing on the actions required to increase our Nation's 
security against terrorist attacks. The Government Reform 
Committee and its subcommittees have held several hearings 
addressing the various dimensions of the new war on terrorism, 
the Subcommittee on Criminal Justice, Drug Policy and Human 
Resources, the Subcommittee on Government Efficiency, Financial 
Management and Intergovernmental Relations, and the 
Subcommittee on National Security, Veterans Affairs and 
International Relations. In the Criminal Justice, Drug Policy 
and Human Resources Subcommittee we have already heard from a 
number of Federal law enforcement agencies on the new 
challenges that they face both internally and in terms of 
working cooperatively with one another. In recent weeks we have 
seen the creation of an Office of Homeland Security in the 
Executive Office of the President. Tom Ridge, Director of that 
new office, has an enormous challenge on his hands as do the 
Federal agencies whose antiterrorism efforts his office will 
coordinate. I am convinced that the effectiveness of these 
protective efforts will depend in large part upon expanded and 
more effective Federal cooperation with the nearly 650,000 
State and local law enforcement officers in this country. On 
October 5, 2001, the Subcommittee on Government Efficiency, 
Financial Management and Intergovernmental Relations held a 
hearing entitled, ``A Silent War: Are Federal, State and Local 
Governments Prepared for Biological and Chemical Attacks?'' 
Among the witnesses testifying at that hearing were the mayor 
of Baltimore and my friend, mayor, Martin O'Malley, and the 
Baltimore city police commissioner, Edward T. Norris, who will 
testify here today, along with many other law enforcement 
officers. During their October 5th testimony--and this is what 
why I requested this hearing--both Mayor O'Malley and 
Commissioner Norris discussed the challenges that law 
enforcement officers have faced in coordinating their anti-
terrorism efforts with those of Federal law enforcement and 
other emergency preparedness agencies. Mayor O'Malley and 
Commissioner Norris to their credit emphasized the critical 
roles that local law enforcement can and must play in securing 
our Nation against terrorist attacks. However, they also 
alerted us to serious shortcomings in the current willingness 
or ability of Federal agencies to share crucial information 
with local law enforcement. To their credit since September 
11th of this year, leading Federal and local officials have 
expressed their collective determination to work together more 
closely and more effectively than ever before. For example, 
during his remarks last Thursday on the planned restructuring 
of the Justice Department to better address the threat of 
terrorism, Attorney General John Ashcroft acknowledged that the 
Department of Justice cannot win this battle alone. We must 
forge new relationships of cooperation and trust with our 
partners in State and local law enforcement. The Attorney 
General declared bureaucratic turf battles must cease when 
terrorists threaten the very ground beneath or feet. And so Mr. 
Chairman, I thank you very much for this calling this hearing. 
I was with Chairman Souder overseas but I got back here early 
because I wanted to be a part of this and I want to thank all 
of our witnesses for being with us today.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] 82174.004

[GRAPHIC] [TIFF OMITTED] 82174.005

[GRAPHIC] [TIFF OMITTED] 82174.006

    Mr. Horn. Thank you very much. You've spent a lot of time 
on this and we are glad to have you with us.
    We are now going to swear in the witnesses. This is an 
investigative Committee of Government Reform; so if you will 
stand and raise your right hands. I might add that if your 
staff is going to help you on that just to have them raise 
their right hand and the clerk will take the note of all of you 
and the staff.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all of the witnesses 
have affirmed the oath, and we will now start with a colleague 
that is having a wonderful time, I'm sure, in this tough 
environment, and that's the Honorable Asa Hutchinson, 
Administrator of the Drug Enforcement Agency, and he was a 
reformer in Congress and we expect you to be a reformer in the 
executive branch.

     STATEMENT OF ASA HUTCHINSON, ADMINISTRATOR, U.S. DRUG 
                   ENFORCEMENT ADMINISTRATION

    Mr. Hutchinson. Thank you Mr. Chairman, Mr. Shays, Mrs. 
Maloney, Mr. Cummings. It's certainly good to be back with you 
and I'm grateful for each of your leadership on this particular 
issue of cooperation. The Drug Enforcement Administration is 
totally dependent upon cooperation and intelligence sharing. To 
illustrate this point, the DEA has 4,500 agents worldwide. The 
Los Angeles Police Department has over two times that number to 
cover one city. The DEA covers the entire United States with 
less than one half the officers in most large cities.
    So how do we do this effectively? We do it through 
intelligence, intelligence sharing, and cooperation. The 
cooperation and sharing that is the subject of this hearing is 
an ongoing goal in law enforcement. It's certainly not perfect 
in today's environment, but we have made enormous progress 
during the last two decades. The 1980's, when I was the U.S. 
attorney in a western District of Arkansas, we started, under 
that administration, the Law Enforcement Coordinating 
Committee, and for the first time, State and local law 
enforcement officials met with their Federal counterparts and 
worked on law enforcement initiatives.
    Today our tools of cooperation and intelligence sharing are 
much more developed, much more integrated than two decades ago. 
I understand that the focus of this hearing is primarily 
counterterrorism, but I believe that our counterterrorism 
efforts can learn much from our cooperative experience in 
counternarcotics. And let me briefly cover the cooperative and 
intelligence sharing efforts from the DEA's perspectives. 
There's two primary tools that are used in this arena.
    First of all would be the task forces that we participate 
in with our State and local counterparts; and second, the data 
bases that are maintained and the extent that they are shared. 
First of all, in reference to the task forces, we've had task 
forces going since the 1960's, but they really got kicked into 
gear in the 1980's. At that time, the Organized Crime Drug 
Enforcement Task Forces were started [OCDETF's] as they are 
referred to today, in which all the agencies, Federal, State 
and local, are combined to attack organized crime and drug 
trafficking.
    So that is a task force that's operational really under the 
auspices of the U.S. Attorney's Office; and second you have 
your traditional task forces, and these have been going on 
since the 1960's, the first one in New York City. But today we 
have only over 1,300 special agents of the DEA assigned to work 
with 1,900 State and local law enforcement officers in over 200 
task forces across the country.
    Why is this important? I'll illustrate this by the fact 
that I went last week to Norfolk, VA, actually it was Jo Ann 
Davis's District, and I visited with the DEA employees. We call 
them all-hands meeting, and as I go in there to meet with the 
employees, I learned that there are numerous task force 
officers there, and they're there because they work alongside, 
shoulder to shoulder with the DEA officers. Their detective, 
Kevin Gavin, of the Portsmouth Police Department, Detective 
James Thomas of the Virginia Beach Police Department, and 
Captain Dorothy Banks of the Portsmouth Sheriff's office. All 
were present there, and they had one question for me, and that 
was, they just wanted to be able to participate in more 
training, but they consider themselves equivalent to the DEA in 
every respect, and the key thing is that every task force 
officer there has access to all the information of the DEA.
    And so if the local chief needed some information on a 
particular issue, you contact your task force officer, who has 
access to all of our data bases. And so all of the data bases 
in the DEA are available through our task forces as well as the 
general intelligence information that we have. This is expanded 
in the HIDTA, the High Intensity Drug Traffic Areas where we 
have over 45 task forces that are funded through the Office of 
National Drug Control Policy. They work in a similar fashion, 
and so through those task forces, that is the primary means in 
which we cooperate, we work alongside our State and local 
counterparts in a very much of a team fashion with equal access 
to intelligence information. We learn from them; they learn 
from us. One of the key data bases that we have that is 
accessed through the task forces from a drug enforcement 
standpoint is the NADDIS, Narcotics and Dangerous Drugs 
Information System, and here 1,980 task force officers can 
access all of the information on drug offenses that the DEA has 
maintained and is an essential tool to anyone who is engaged in 
drug enforcement.
    Beyond the task forces, law enforcement agencies have 
access in two primary ways to the data bases. The hub for 
sharing information to all the State and local agencies is the 
El Paso Intelligence Center. EPIC is the hub that is the 
clearinghouse for gathering the intelligence information and 
sharing it with our State and local counterparts. An 
illustration of this, if you will, is the State trooper in 
Maryland makes a routine traffic stop on I-95. During the 
encounter, there's suspicious wonderment about some answers, 
but not enough to create a warrant for further action, and so 
the driver is given a citation and he moves on, but if that 
same trooper had done a computer check of the vehicle and 
checked with the EPIC, El Paso Intelligence Center, we would 
learn within minutes that the driver's prior conviction--had a 
prior conviction in California for trafficking, and the fact 
that the vehicle entered the United States just 2 days before 
across the border in Mexico, from Mexico to Texas, but the 
driver told the trooper he has been traveling cross-country 
from Chicago with no mention of Mexico. This alerts the trooper 
to the suspicious activity. Its suspicion--probable cause for 
the canine unit to come and this is the way that the EPIC--the 
information, the data base there is accessed by our local law 
enforcement and they're able to gain the same information that 
we have and to benefit from it.
    Another data base that is helpful is the National Drug 
Pointer Index which is really a deconfliction system where that 
if you've got a narcotics officer for the local police 
department starting an investigation, he checks with this index 
to see if anyone else is running the same type of case, and if 
you find out that there's a positive hit, then you can check 
with another officer in another city and compare notes as to 
that investigation. And so the DEA works through the task force 
concept in which we share information, we gain information, we, 
to the largest extent possible, try to make our data bases 
available to local law enforcement to aid them in the effort.
    Finally, I just would want to emphasize how essential it 
is, it is essential for accomplishing our mission that we have 
this type of shared information and it is certainly essential 
for the wise use of tax dollars. In reference to the future, a 
number of you made reference to the fact we have to have 
information going in a shared fashion. The local law 
enforcement are the ears that are trained and in 
counterterrorism. It very well could be a traffic stop that 
will give us some key information if we're attuned to what is 
happening. We can have better tuned ears if we have information 
flowing going back to the local law enforcement so they know in 
a larger sense what the picture is, what they're looking for, 
and they could be of a greater aid to the joint terrorism task 
forces that are being discussed today. Thank you for your 
leadership on this issue, and at the conclusion, I'll be happy 
to answer any questions.
    Mr. Horn. Well, thank you very much.
    [The prepared statement of Mr. Hutchinson follows:]
    [GRAPHIC] [TIFF OMITTED] 82174.007
    
    [GRAPHIC] [TIFF OMITTED] 82174.008
    
    [GRAPHIC] [TIFF OMITTED] 82174.009
    
    [GRAPHIC] [TIFF OMITTED] 82174.010
    
    [GRAPHIC] [TIFF OMITTED] 82174.011
    
    [GRAPHIC] [TIFF OMITTED] 82174.012
    
    [GRAPHIC] [TIFF OMITTED] 82174.013
    
    [GRAPHIC] [TIFF OMITTED] 82174.014
    
    [GRAPHIC] [TIFF OMITTED] 82174.015
    
    [GRAPHIC] [TIFF OMITTED] 82174.016
    
    [GRAPHIC] [TIFF OMITTED] 82174.017
    
    [GRAPHIC] [TIFF OMITTED] 82174.018
    
    Mr. Horn. As you know, the way we operate is all the 
witnesses give their presentation, and then all the Members get 
5 minutes and alternate between the Democrats and the 
Republicans. So we now have Honorable Scott L. King, mayor, 
city of Gary. He's representing the U.S. Conference of Mayors.
    Mr. King.

      STATEMENT OF SCOTT L. KING, MAYOR, CITY OF GARY, IN

    Mr. King. Since September 11th at the request of our 
President, Mayor Marc Morial of New Orleans, I, along with 
Mayor Jeff Griffin of Reno and Mayor Martin O'Malley of 
Baltimore, have co-chaired a task force on Federal local law 
enforcement. We met in New Orleans on October 15th along with 
several police chiefs and public safety directors. 
Recommendations occurring during that meeting were then carried 
to the Department of Justice in a meeting that Mayor O'Malley 
and myself had on October 17th. On October 23rd through 25th, 
the Conference of Mayors sponsored the Mayors Emergency Safety 
and Security Summit here in Washington, and it was attended by 
over 200 mayors, police chiefs, fire chiefs, and emergency 
managers.
    During that summit, we presented recommendations to 
Homeland Security Director Ridge, Attorney General Ashcroft, 
FBI Director Mueller, HHS Secretary Thompson, FAA administrator 
Jane Garvey, and other top officials. The recommendations 
covered issues related to Federal/local law enforcement, 
emergency preparedness, transportation security, and economic 
security. I have attached the initial report released during 
the course of that summit, and the more detailed report will be 
released soon and forwarded to the subcommittee. In addition, 
last week, November 7, Mayor Morial, myself, Mayor O'Malley and 
several other mayors met with former Governor Ridge in the 
White House to discuss in some detail the recommendations that 
we put together during the summit. Those recommendations 
include the following: That mayors of the largest cities in 
each metropolitan area in the country should be included in the 
Federal District law enforcement task forces convened by the 
U.S. attorneys per the direction of the Attorney General, 
otherwise known as ATTF's or Anti-Terrorism Task Forces. Those 
mayors could then convene all appropriate representatives of 
cities within their metropolitan areas and serve as the 
critical link to the existing coordinated Federal response 
within that District. Mayors and police chiefs must be 
permitted to receive any security clearances needed to obtain 
appropriate intelligence.
    Existing restrictions on local law enforcement access to 
the NCIC data system for criminal records checks must be 
modified. It should be updated with as much information as 
possible including photographs, visa information, driver's 
license information, and last known addresses. Federal and 
local intelligence data bases should be merged wherever 
possible. INS warrant information with photographs sought by 
Federal authorities should be provided to local law enforcement 
agencies. The Nation's 650,000 local police officers should be 
allowed to assist the FBI in tracking down and following up on 
at least a portion of the tips received and to be received in 
the future.
    As provided in the recently enacted USA Patriot Act of 
2001, institutional barriers to greater intelligence sharing 
between Federal and local law enforcement agencies should be 
addressed. We're happy to report that there has been some 
response to this. On November 1, Senators Schumer, Clinton, 
Leahy, and Hatch introduced the Federal-Local Information 
Sharing Partnership Act of 2001, Senate bill 1615. We also 
understand as a conference that companion legislation is 
expected here in the House.
    The Conference of Mayors strongly supports this 
legislation. It is our hope that Congress will move the 
legislation quickly through the process and on to the President 
for his signature. Unlike most other industrialized countries, 
it is local government, not the Federal Government, which has 
primary responsibility for homeland defense in the United 
States. It is primarily our police who are responding to the 
continuing calls from the Attorney General for a heightened 
state of alert to guard our public infrastructure, places of 
gathering, and population centers in general. It is our police 
at the local level, fire and EMS personnel who are responding 
to the thousands of new 911 calls related to possible anthrax 
attacks or other terrorism-related public concerns.
    Simply stated, there is no Federal fire department. 911 
does not ring in either the Nation's or the State's capitals. 
They ring in the city halls, police stations, and fire stations 
of this country. It is also important to note that of the 
approximately $10 billion in Federal anti-terrorism dollars 
identified by OMB, only 4.9 percent is allocated to a 
combination of State and local first response activities, and 
of this limited amount, most is provided to the States, 
bypassing America's cities and major population centers. Also 
on this issue of funding, it is ill-advised that the conferees 
on the Commerce Justice State Appropriations Bill, House 
Resolution 2500, decided last Thursday to reduce the local law 
enforcement block grant program from $522 million to $400 
million, a 24 percent cut.
    At a time when our Nation is at war and local law 
enforcement is leading the home front fight, it's bad enough 
we're not getting enough in prospective financing, but to cut 
us on funds we already rely upon is, in our view, 
unconscionable. We urge the Congress, we urge the Congress to 
have impact and input and turn around that decision made last 
Thursday by the conference committee.
    I want to thank the chairman, the ranking members, and all 
Members that are here on these subcommittees for this chance to 
testify. The Mayors of the United States are committed to the 
continuing fight against terrorism and we look forward to 
working closely with Congress on what must be the Nation's top 
priority, defending our homeland and maintaining public safety. 
Thank you.
    Mr. Horn. Thank you very much. You had a very presentable 
situation, and I would hope that the mayors would go and talk 
to the conference in both the Senate and the House to solve 
this. We listen to mayors.
    [The prepared statement of Mr. King follows:]
    [GRAPHIC] [TIFF OMITTED] 82174.019
    
    [GRAPHIC] [TIFF OMITTED] 82174.020
    
    [GRAPHIC] [TIFF OMITTED] 82174.021
    
    [GRAPHIC] [TIFF OMITTED] 82174.022
    
    [GRAPHIC] [TIFF OMITTED] 82174.023
    
    [GRAPHIC] [TIFF OMITTED] 82174.024
    
    [GRAPHIC] [TIFF OMITTED] 82174.025
    
    Mr. Horn. So we will now move to Edward T. Norris, the 
commissioner of the Baltimore Police Department. We're glad to 
see you back here, Mr. Norris, and thank you very much for 
coming.

 STATEMENT OF EDWARD T. NORRIS, COMMISSIONER, BALTIMORE POLICE 
                           DEPARTMENT

    Chief Norris. Mr. Chairman, members of the subcommittee, 
thank you for giving me the opportunity to return to Washington 
to discuss with you progress achieved today in developing well 
integrated Federal, State, and local defense against future 
acts of terrorism in this country. As I testified on October 
5th, all levels of law enforcement must do a better job, 
dramatically better job, of collecting and sharing 
intelligence, but at this time it's important to note, and as I 
thanked the FBI Director, Robert Mueller, for listening to what 
I had to say on that day and in subsequent conversations, I 
asked for watchlist names to be placed on a nationwide 
computer, and he did just that.
    However, while progress has been made, the level of Federal 
and strategic collaboration with local law enforcement remains 
weak. Last month he gave me a forum to identify the problem. 
Today, I return with some concrete solutions that will result 
in a level of competent, coordinated law enforcement the 
American people deserve. It is addressed to the Department of 
Justice leadership on November 8.
    Attorney General Ashcroft stated we are engaged in an 
aggressive arrest and detention campaign of law breakers with a 
single objective, to get terrorists off the street before they 
can harm more Americans. The 645,000 law enforcement 
professionals in the United States stand ready to join the 
campaign today. They'll offer specific strategy to utilize all 
available law enforcement agencies in a way that complements 
rather than drains resources and abilities. Because the cost of 
this war has been tremendous, resources must be combined in an 
efficient manner.
    At the local level we can't wait for Federal funding 
programs to start the engineering of law enforcement's 
response. The plan I propose requires little or no additional 
funding, but would provide dramatic results. Since October, the 
FBI has taken a certain step of placing its watchlist of 230 
names in NCIC. NCIC, of course, is the computer system that 
allows State and local law enforcement officers to conduct 
checks for Federal, State and local warrants. These checks are 
done thousands of times a day by local officers across the 
country. That's how we caught Timothy McVeigh.
    In agreeing to include their watchlist in NCI--IC, the FBI 
has increased its search capacity from 11,000 agents to 
additional 645,000 law enforcement professionals. But this 
isn't enough. The Federal Government goes a step further by 
releasing photographs of these 230 individuals. The names can 
easily be changed or altered, their appearances cannot. INS 
must also get involved by placing all out-of-status subjects in 
NCIC. Currently, verification of an alien status can only be 
done through direct contact with the regional INS. This is 
extremely limiting, because there are only 24 INS agents in 
Maryland. I understand that 250,000 illegal aliens have been 
ordered deported, yet are now missing and cannot be found by 
INS. A new way of doing business is in order.
    By placing this information in NCIC, the INS will 
experience the same force-multiplying effect as the FBI did 
when it placed its watchlist in NCIC. A natural liaison exists 
at the State and local level to assist the FBI and INS with the 
backlog of investigations. Baltimore Police Department, like 
most large police departments in this country, has an 
intelligence unit. These units existed long before September 
11th, and they worked to develop intelligence on gangs, 
terrorists, and other criminal organizations.
    If the FBI provided security clearances to the 26 
detectives in my unit and the INS was willing to deputize these 
same detectives, they could work the informational leads with 
the FBI and INS. These deputized detectives would then send the 
appropriate information to Baltimore's 3,000 patrol officers, 
who in turn, will use all available technology and 
investigative skills to work on some of the FBI's 500,000 open 
tips and track down out-of-status aliens working and living in 
Baltimore. If this was done across the country, the Federal 
Government would add thousands to its investigative pool. The 
further value to this action is that by deputizing local law 
enforcement, Federal investigations would happen at the grass-
roots level in neighborhoods and communities in which suspected 
terrorists live. All this cooperative assistance is provided 
without additional cost to the Federal Government.
    The Attorney General has instructed the Department of 
Justice to put an end to bureaucratic turf battles. He 
announced the wartime reorganization and mobilization effort 
and submitted to Congress a strategic plan which will assist 
the Department of Justice in meeting its new anti-terrorism 
mission.
    I therefore urge four essential actions: Require the 
Federal Government to provide photographs for those on the 
watchlist; require INS to place the names of out-of-status 
aliens in NCIC; require the Department of Justice to engage in 
active substantive discussions with local and State law 
enforcement leaders to develop a strategy that would 
effectively deploy 645,000 law enforcement officers to support 
Federal anti-terrorism efforts. Such a strategy should include 
Federal deputization of local law enforcement intelligence 
officers and the strategy should be developed and implemented 
within 30 days.
    I welcome the opportunity to pilot any such efforts in my 
city.
    And last, require the Department of Justice to develop an 
accountability program like Philadelphia, Baltimore, New York 
and many other cities uses, COMPSTAT. Since New York launched 
this method, crime went down 70 percent and the Department of 
Justice, to share information on a timely basis with other law 
enforcement agencies through a COMPSTAT-like form and 
investigate accordingly.
    In conducting these meetings both in New York and 
Baltimore, dramatic results have occurred. The first step of 
this method, called COMPSTAT, is a collection of accurate and 
timely intelligence, exactly what we're asking for today. In 
May, Attorney General Ashcroft testified before Congress 
regarding the efforts to combat terrorism to the United States. 
He said within our borders, the Department's counterterrorism 
efforts require close coordination with not only with other 
Federal agencies, but also with State and local agencies. 
Simply put, no one agency can effectively address terrorism on 
its own, pointing out, however, we can make great strides to 
protecting our Nation and its citizens from terrorists. These 
are powerful words.
    Now let's put it into action. I understand the difficulties 
of changing the culture of an organization. I spent the first 
20 years of my law enforcement career with the New York City 
Police Department. An agency as deeply rooted in tradition as 
any Federal agency and four times the size of the FBI. The 
culture of the NYPD changed because deeply committed men and 
women were willing to change the system that desperately needed 
it. The world events of the past 2 months have dramatically 
changed the way local law enforcement works. Federal law 
enforcement must make changes as well. Thank you.
    Mr. Horn. Thank you very much, Commissioner. We now turn to 
John F. Timoney, commissioner of the Philadelphia Police 
Department. We're working our way up the coast.

STATEMENT OF JOHN F. TIMONEY, COMMISSIONER, PHILADELPHIA POLICE 
                           DEPARTMENT

    Chief Timoney. Good morning, sir, and thank you for the 
opportunity to testify before your committee. I have submitted 
as part of the testimony, an op-ed piece I wrote for the 
Philadelphia Inquirer basically an open letter to Governor 
Ridge upon taking his new job.
    Let me say, post-September 11th America has changed and the 
way we police America has also changed, and probably forever, 
but there are three areas I'd like to discuss quickly today 
that I think need addressing by Congress. One of them is in the 
area of intelligence sharing. As I said, the biggest lie in law 
enforcement is that we work well together and share 
information. We don't, under a whole variety of reasons. 
There's institutional reasons, cultural, traditional reasons, 
legal reasons.
    The FBI or others will tell you we'd like to tell you, but 
we'll fit--and because of 6-E, if a grand jury's impaneled, but 
the one I found more offensive is the issue, we'd like to share 
it with you, but you don't have top secret clearance. I spent 
29 years in New York City Police Department retiring as the No. 
2, and the last 4 years as the Philadelphia police 
commissioner. I can guarantee you I protected more Presidents 
than most of the people that wrote those guidelines, and so I 
find them personally insulting.
    The second area, as I mentioned here, the idea of 
mobilizing local law enforcement, and I understand there are 
18,000 local law enforcement, but there is a method already 
established where you can get this mobilization to take effect, 
if you will, through an institution known as the major city 
chiefs, the 55 major city chiefs should be passed with the 
responsibility of mobilizing the smaller communities 
surrounding the major metropolitan areas.
    Again, as was referenced here, it wasn't the FBI that 
locked up the most notorious terrorists tried on September 
11th. It was the local law enforcement officer pulling over 
Timothy McVeigh for a bad license. As I said, the organization 
already exists. On the major city chiefs in Philadelphia, we 
began about a year and a half ago the idea of not just crime 
mapping the city of Philadelphia but regional crime mapping, 
and at our COMPSTAT meetings, the chiefs from the surrounding 
areas come in and attend those meetings also, and so there's a 
perfect mechanism of instituting the sharing or the mobilizing 
of law enforcement officers in this fight against terrorism.
    And finally the costs, they've been mentioned here but 
there are huge costs that have been attached already since 
September 11th. But my sense is listening to the Defense 
Department and other Federal officials who indicate that this 
effort will take at least a year and a half, maybe two or even 
longer, most big cities, I don't think, can afford the drain on 
our resources. I know we've spent upwards of $2 million so far 
just in the city of Philadelphia, and so there's a real need to 
get some resources to offset the direct costs and as has been 
mentioned, the local law enforcement block grant has already 
been cut 24 percent.
    We've been expecting that money upwards of a year ago. 
There are also indirect costs that are associated with it, and 
that of course is the opportunity cost. If we have officers 
doing task A, they can't be involved in additional tasks of 
fighting crime and protecting the neighborhoods.
    So I think there's a real need for Congress to get actively 
involved to pass some legislation to force the sharing of 
intelligence to take the leadership in mobilizing local law 
enforcement, and then realistically dealing with the costs that 
are attendant to the vast majority of local law enforcement 
across America. Mr. Chairman, I thank you for the opportunity 
for sharing my thoughts with this committee.
    Mr. Horn. Thank you very much, Commissioner. We appreciate 
your being here.
    [The prepared statement of Chief Timoney follows:]
    [GRAPHIC] [TIFF OMITTED] 82174.026
    
    [GRAPHIC] [TIFF OMITTED] 82174.027
    
    Mr. Horn. We now have Charles H. Ramsey, the chief of 
police in the District of Columbia, the city of Washington. 
Glad to have you here, Chief.

  STATEMENT OF CHARLES H. RAMSEY, CHIEF, METROPOLITAN POLICE 
                           DEPARTMENT

    Chief Ramsey. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for the opportunity to speak with you 
today concerning the state of our preparedness in the wake of 
the September 11th attacks and the recent biochemical attacks, 
and any future threat that we may face here in Washington, DC.
    Obviously September 11th was the ultimate example of events 
that never could have been anticipated, neither the acts nor 
the magnitude of those acts. Yet even with the depth of the 
events that unfolded that horrific morning, the Metropolitan 
Police Department was able to respond without delay. We very 
quickly recalled all of our officers and essential civilian 
personnel, canceled days off, put our sworn members on 12-hour 
shifts. We also put officers at critical intersections 
throughout the city both to enhance our visibility and to help 
direct traffic to the extent possible.
    I think we all recognize the herculean task the District 
faced in trying to maneuver that many people out of the city at 
one time, and the fact that we did so is really a testament to 
our police officers and other traffic safety personnel. But 
even as we dealt with staffing issues, we recognize the 
importance of pulling together Federal, State, and local 
officials in a coordinated response to what was taking place. 
We have a brand new Joint-Operations Command Center, and even 
before the plane struck the Pentagon, we were able to get that 
center up and running with representatives from a variety of 
Federal and local law enforcement agencies so we could learn 
what was taking place and be in a better position to defend our 
city.
    I do have a prepared text, Mr. Chairman, which obviously 
can be entered into the----
    Mr. Horn. All of those fine papers automatically go into 
the hearing record----
    Chief Ramsey. Yes, sir.
    Mr. Horn [continuing]. The minute we say ``hi.''
    Chief Ramsey. But what I would like to do, sir, is just 
kind of comment on a couple of things that my colleagues in 
Baltimore and Philadelphia said about the level of cooperation. 
It is essential that there be open lines of communication 
between all law enforcement agencies if we're going to be able 
to deal with this threat effectively. Here in Washington, DC, 
we're in a unique position because we are the Nation's Capital.
    We have regular ongoing communication with all the Federal 
agencies, and I would describe our relations with those 
agencies as being good overall. I think the history that we 
have of working together through a variety of events has really 
paid off during these particular times; however, there are 
still some issues that need to be addressed, and that is the 
sharing of information critical to our knowing how to deploy 
our resources, especially in a city like Washington, to be 
effective against this threat of terrorism. I'll give you an 
example. Police chiefs across this country do not have secret 
or top secret clearances; so there's a limit to the amount of 
information that can be given. I participate in the Joint 
Terrorism Task Force. I have officers that are assigned. 
They've been given these clearances, but there is even some 
information our own officers can't carry back to us because of 
the restrictions in that area, and that's something that 
certainly needs to be looked at. The different threat levels 
that are constantly coming out in public from different offices 
at the Federal level, whether it being the Attorney General's 
Office or the Office of Homeland Security, and just what that 
does to us as local law enforcement agencies when we're told to 
go on a highest state of alert, yet there's no concrete 
information at all that can be shared if there's some available 
to tell us why and what to do.
    I've had conversations with Mr. Mueller. He actually 
stopped by my office 2 weeks ago and we spent a good hour 
talking about these issues, and I felt very good afterwards 
that he certainly was willing to do whatever it took to enhance 
communications between local and Federal law enforcement 
agencies, but it just adds to the confusion that's out there 
already when we're told to go to a highest state of alert, 
which, quite frankly, we've been on since September 11th. And I 
don't know how much higher we can get unless we have real 
specific information.
    I think the danger is it can desensitize the public to the 
real threat if we go to these levels too often and nothing 
happens, and there's no real concrete information when we do 
have something and we need to have people pay attention to us, 
they may indeed not listen. Our own officers can get burned out 
when we constantly tell them to be at this heightened state of 
readiness, yet we cannot give them anything concrete to sink 
their teeth into.
    So again, if there is information that is available at the 
FBI or somewhere else that's not being passed along, it would 
certainly go a long way if we were able to share that 
information. I agree with what Ed Norris said about various 
steps that could be taken in terms of sharing information, not 
only with the FBI, but INS and other law enforcement agencies. 
I think this is something that we can very--all of us are more 
than willing or able to overcome in terms of any strain that's 
been placed on any relationships in the past. We're all 
professionals. We're all looking forward to working together to 
keep America safe and secure, but there are some steps that are 
going to have to be taken in terms of information sharing to 
put us all on the same page, to share the information, to form 
the trust that's necessary if we're truly going to be law 
enforcement partners and work together in order to be 
successful.
    So with that, I'd like to end my comments and thank you 
very much for allowing us to speak this morning.
    Mr. Horn. Thank you very much, Chief.
    [The prepared statement of Chief Ramsey follows:]
    [GRAPHIC] [TIFF OMITTED] 82174.028
    
    [GRAPHIC] [TIFF OMITTED] 82174.029
    
    [GRAPHIC] [TIFF OMITTED] 82174.030
    
    [GRAPHIC] [TIFF OMITTED] 82174.031
    
    Mr. Horn. We now have William Dwyer, the chief of the 
Farmington Hills Police Department in the State of Michigan, 
and he is representing the Police Chiefs Association of 
Michigan. Glad to have you here.

STATEMENT OF WILLIAM DWYER, CHIEF OF POLICE, FARMINGTON HILLS, 
                               MI

    Chief Dwyer. Subcommittee Chairmen Horn, Shays, and 
subcommittee members, good morning. I was invited to present a 
candid perspective on the state of relations and cooperation 
between local and Federal law enforcement agencies. As 
president of the Michigan Association of Chiefs of Police and 
chief of police for the Detroit suburb of Farmington Hills, I 
speak for local law enforcement in the State of Michigan. 
Previous to my current position, I served the Detroit Police 
Department, retiring at the rank of commander.
    During my 40-year career in law enforcement, I've had 
extensive interaction with Federal law enforcement agencies. In 
September I attended conference of the International 
Association of Chiefs of Police in Toronto where a message was 
shared from U.S. Attorney General John Ashcroft. The U.S. 
Attorney sent a directive to 94 U.S. attorneys to form a 
national network on anti-terrorism task forces. His message 
unites local and State agencies working in partnership with 
representatives of the Federal Bureau of Investigation, 
Immigration and Naturalization Service, Federal Marshals 
Service, and Secret Service. At the same conference I was 
encouraged to see FBI Director Robert Mueller meet with law 
enforcement organizations to walk through issues, address 
misconceptions and explore ways to improve local and Federal 
law enforcement relationships. The personal relationships I 
have with Federal officials are excellent. The investigative 
assistance and training support my department receives is 
outstanding. My entire executive command staff and I are 
graduates of the FBI National Academy.
    When it comes to investigative support, I find that 
relationships with Federal agencies are continuously improving. 
Just last week, the FBI issued Federal charges against a murder 
suspect who fled from Michigan through several States into 
Mexico and our special agent in charge of the Detroit office, 
Mr. John Bell, has done just an outstanding job with his ASAC, 
Kevin Kendrickson. They work daily with all law enforcement in 
the State of Michigan. We routinely turn our credit and fraud 
and counterfeit money complaints over to the Secret Service.
    The ATF routinely assists us with explosive and firearm 
cases. Just recently that agency helped us convict a man who 
attempted to commit a workplace massacre at a local software 
company. The DEA recently sent the special assistant to the 
administrator to meet with us to address a task force 
management issue, and we regularly work with Federal 
immigration and border officials to identify suspects and 
deport criminals, convicted criminals. Still, the reality of 
law enforcement cooperation is an elusive concept. Sometimes it 
works. Sometimes it doesn't, which is not to say we don't all 
want it to work.
    I firmly believe every law enforcement executive in this 
country would support the ideal of law enforcement cooperation. 
The reality, however, is different from the ideal. Today we 
have many impediments to sharing critical law enforcement 
information in real time. For example, different grand jury 
rules, agency competition, national security information 
classification rules, and the battle for scarce law enforcement 
dollars.
    In many cases, these stumbling blocks lead to an illusion 
of cooperation compared with a reality of fragmentation. How do 
we improve the situation? I believe there needs to be a 
national security information clearinghouse that ensures that 
critical information gets to the appropriate law enforcement 
executive at the local, county or State level. This, perhaps, 
should be a logical function of the Office of Homeland 
Security. This clearinghouse is the only way to guarantee that 
the information gathered by Federal law enforcement is not only 
disseminated vertically in an administrative chimney, but that 
it is disseminated horizontally to those agencies that need it.
    At the local level, the Joint Terrorism Task Forces that 
are being established need to be co-chaired, and I say ``need 
to be co-chaired,'' by a local law enforcement executive and a 
Federal official.
    Our country is at war. While our Armed Services fight in 
Afghanistan, local and Federal law enforcement officers are 
fighting terrorism at home. Federal officials have new powers 
to help local officials gather intelligence, track suspects, 
and subpoena evidence, but we need to go further and address 
the barriers to sharing critical information that I mentioned 
earlier. The combined resources, expertise, and ideas of U.S. 
law enforcement have the potential to transform our collective 
agencies into something far greater than the sum of their 
parts. To realize this potential, however, we need to break 
down barriers, abandon turf wars, take some courageous new 
steps, and keep our eyes on the greater good of our country.
    Thank you for inviting me here today. May God bless you as 
you serve our country during these troubled times.
    [The prepared statement of Chief Dwyer follows:]
    [GRAPHIC] [TIFF OMITTED] 82174.032
    
    [GRAPHIC] [TIFF OMITTED] 82174.033
    
    [GRAPHIC] [TIFF OMITTED] 82174.034
    
    [GRAPHIC] [TIFF OMITTED] 82174.035
    
    Mr. Horn. Thank you very much for your testimony, and the 
next three witnesses are Federal officials, and we will start 
with the Honorable Richard R. Nedelkoff, Director, Bureau of 
Justice Assistance, Office of Justice Programs, Department of 
Justice. Glad to have you here, Mr. Nedelkoff.

STATEMENT OF RICHARD R. NEDELKOFF, DIRECTOR, BUREAU OF JUSTICE 
 ASSISTANCE, OFFICE OF JUSTICE PROGRAMS, DEPARTMENT OF JUSTICE

    Mr. Nedelkoff. Thank you very much, Mr. Chair. I'm very 
pleased to be here today to discuss Federal, State, local 
intelligence sharing in the context of the criminal justice 
system. Later today, the Attorney General will be announcing 
further efforts to improve coordination with our partners in 
State and local law enforcement. The Office of Justice Programs 
looks forward to participation in this initiative and supports 
the Attorney General's goal to create a seamless communication 
system with the State and local law enforcement entities. As 
Director of the Bureau of Justice Assistance in the Office of 
Justice Programs, I am well positioned to see how Federal funds 
and leadership can support the work of our State, local and 
tribal partners. The sharing of criminal justice information 
directly impacts the safety of every citizen in the United 
States. With the advent of the Internet and other emerging 
technologies, the public has every right to not only expect, 
but to demand that information from one part of the criminal 
justice system is available to the others.
    We must work to ensure that we have appropriate and 
effective information sharing at the Federal, State, and local 
levels. The electronic exchange of information is one of the 
most powerful tools available to protect our communities from 
crime and terrorist activities. The Office of Justice Programs 
[OJP], has been supporting the development of systems to enable 
sharing of justice information. Our information technology 
initiative has been helping local, State, and tribal 
governments with identifying cost-effective, information 
technology standards and processes. Assisting our partners with 
sharing criminal justice information is not a new 
responsibility for us.
    In fact, this Federal initiative began in 1974. Because of 
the success of our first regional center was enjoying, 
membership quickly expanded, and over the next several years, 
five other regional centers were created. By 1981, all 50 
States were covered by one of six regional intelligence centers 
in the RISS program, which stands for Regional Information 
Sharing System. A decade ago, there were 3,000 participating 
agencies. Today, the RISS program has over 6,000 Federal, State 
and local agencies. Attached to my statement is a list of the 
centers and the States that they serve. RISS has responded to 
the law enforcement's need to share criminal justice 
intelligence around the country. Over the years, RISS has 
adapted to provide additional services, including criminal 
intelligence analysis and other activities that complement and 
support the communication and exchange of criminal 
intelligence. In this way, RISS supports multijurisdictional 
investigations and prosecutions. RISS is not operational. It 
exists solely to house and share information. RISS is governed 
by its local, State, and Federal law enforcement member 
agencies. Each RISS intelligence center has the board of 
directors drawn up from its membership. The Bureau of Justice 
assistance provides approximately $25 million annual funding 
and overall program oversight and management.
    Over the past decade we have been working to make the 
criminal justice information more accessible to RISS members. 
In 1997, RISS and BJA, ahead of schedule and under budget, 
completed RISS.NET, a Web-based nationwide secure network for 
communications and sharing of criminal intelligence 
information. The secure network links six centers and their 
member agencies.
    The RISS Program created a private network that provides 
encryption software and authentication protocols using a smart 
card technology. Today RISS.NET is the only secure nationwide 
network serving law enforcement for the exchange of sensitive 
criminal justice intelligence information.
    RISS.NET also provides secured e-mail services to agencies 
nationwide. During calendar year 2000, RISS centers began 
electronically integrating with other law enforcement 
information systems, such as the High-Intensity Drug 
Trafficking Areas [HIDTAs] and the National Drug Intelligence 
Center and other State and regional systems.
    On September 11th, the FBI asked the RISS centers to assist 
in staffing a command center to serve as a link to RISS.NET for 
secure exchange of information on terrorism. Additionally RISS 
created a special section on the secure electronic bulletin 
board site on posting current sensitive intelligence regarding 
this tragedy. Following the September 11th attacks, the RISS 
Program also implemented a terrorism data base at one of the 
centers for use by the FBI Inland Northwest Regional Terrorism 
Task Force.
    At no time in our history has the sharing of information 
among law enforcement agencies been more important. With RISS, 
we have a proven successful capability that we hope will assist 
law enforcement communities for years to come.
    That concludes my formal statement. Thank you very much.
    Mr. Horn. Thank you.
    [The prepared statement of Mr. Nedelkoff follows:]
    [GRAPHIC] [TIFF OMITTED] 82174.036
    
    [GRAPHIC] [TIFF OMITTED] 82174.037
    
    [GRAPHIC] [TIFF OMITTED] 82174.038
    
    [GRAPHIC] [TIFF OMITTED] 82174.039
    
    [GRAPHIC] [TIFF OMITTED] 82174.040
    
    [GRAPHIC] [TIFF OMITTED] 82174.041
    
    [GRAPHIC] [TIFF OMITTED] 82174.042
    
    [GRAPHIC] [TIFF OMITTED] 82174.043
    
    [GRAPHIC] [TIFF OMITTED] 82174.044
    
    [GRAPHIC] [TIFF OMITTED] 82174.045
    
    [GRAPHIC] [TIFF OMITTED] 82174.046
    
    Mr. Horn. We now have Kathleen L. McChesney, Assistant 
Director, Training Division, Federal Bureau of Investigation of 
the Department of Justice. Glad to have you here.

    STATEMENT OF KATHLEEN L. McCHESNEY, ASSISTANT DIRECTOR, 
TRAINING DIVISION, FEDERAL BUREAU OF INVESTIGATION, ACCOMPANIED 
 BY DAVID WALCHAK, DEPUTY ASSISTANT DIRECTOR, CRIMINAL JUSTICE 
INFORMATION SERVICES DIVISION, FEDERAL BUREAU OF INVESTIGATION; 
   AND LYNNE HUNT, SPECIAL AGENT IN CHARGE, BALTIMORE FIELD 
            OFFICE, FEDERAL BUREAU OF INVESTIGATION

    Ms. McChesney. Thank you, Mr. Chairman. Good morning. Good 
morning, members of the committee. Also with me is Mr. David 
Walchak, who is Deputy Assistant Director of the Criminal 
Justice Information Services Division, and Special Agent in 
Charge Lynne Hunt of our Baltimore field office.
    The FBI is aware of the concerns of law enforcement 
officers regarding their need for information to help them do 
their jobs safely, efficiently and completely. Recently 
Director Robert S. Mueller asked me to assist him in making 
improvements in the way we coordinate investigations with and 
communicate information to our law enforcement partners at the 
State and local levels. The manner in which we intend to do 
that is to first solicit the guidance and input of the law 
enforcement community as we have in the past in other 
endeavors.
    In order to adequately respond to acts of terrorism as well 
as to potential threats, the law enforcement community 
generally works through established joint terrorism task 
forces, regional task forces or counterterrorism working 
groups. These task forces have been in existence since 1980, 
the first being in New York City. This has been the most 
successful way to address terrorism problems. The 
counterterrorism successes achieved by the joint terrorism task 
forces are due in large part to the promotion of an atmosphere 
of enhanced coordination--this immediate transparency between 
the FBI and its law enforcement partners.
    There are currently 36 joint terrorism task forces in 
operation, to which there are more than 620 FBI special agent 
participants and 584 full-time and part-time officers from 
other Federal, State and local agencies. Our plan is to ensure 
that each of the FBI's 56 field offices has a joint terrorism 
task force and are covered through a regional terrorism task 
force.
    Proposed fiscal year 2002 expansion includes establishing 
additional task forces in Baltimore, Honolulu, Milwaukee, 
Norfolk, Omaha, St. Louis, Kansas City and Little Rock. Our 
ability to establish and sustain task force operations 
nationwide is dependent on additional funding, however.
    Director Mueller has also reached out to key law 
enforcement leaders throughout the United States and asked them 
to educate him on their issues and concerns. He held a series 
of meetings with representatives from the International 
Association of Chiefs of Police, major city chiefs and the 
National Sheriff's Association. These meetings have led to some 
new initiatives which we are following through. One initiative 
is to explore the feasibility of creating a permanent advisory 
board comprised of State and local law enforcement executives 
to identify and address current issues that impact on our 
relationships. One specific goal of this group is to suggest 
categories of threat advisories that will assist public safety 
and Office of Homeland Security officials in providing the 
appropriate level of response to the various types of 
information obtained by the FBI or other sources. Our first 
meeting of this group is scheduled for November 16, 2001.
    It is also apparent that much more needs to be done in the 
area of training. Hundreds of thousands of officers throughout 
the country can provide valuable information about criminal 
activity and offenders. Similarly, it is important to educate 
officers on how the FBI obtains information regarding potential 
terrorist acts, how it is evaluated, and the laws which 
regulate its use and transmission. The FBI is in the process of 
preparing training materials that will be disseminated to these 
officers so that we may use the force-multiplier effect in 
identifying wrongdoers.
    Working through existing law enforcement academies, our 
local field offices and learning structures, we will also 
provide more training of the type that we have provided in the 
past to our joint terrorism task force members. We will utilize 
existing and future technologies such as Law Enforcement Online 
[LEO], which is the information highway for law enforcement, 
criminal justice and public safety information. We will also 
use NLETS, the National Law Enforcement Telecommunication 
Systems, which we have used in the past and has been very 
successful in getting information out to 18,000 member 
agencies.
    These are some of the ways in which the FBI is working with 
its local partners. We realize there are other things that can 
be done, and with the new assignment that the Director has 
given me, I hope that I will be able to work with the members 
not only at this panel here, but our counterparts throughout 
the United States. Thank you very much.
    Mr. Horn. Thank you very much. We appreciate your coming 
here, and you have a very distinguished career here.
    [The prepared statement of Ms. McChesney follows:]
    [GRAPHIC] [TIFF OMITTED] 82174.047
    
    [GRAPHIC] [TIFF OMITTED] 82174.048
    
    [GRAPHIC] [TIFF OMITTED] 82174.049
    
    [GRAPHIC] [TIFF OMITTED] 82174.050
    
    [GRAPHIC] [TIFF OMITTED] 82174.051
    
    [GRAPHIC] [TIFF OMITTED] 82174.052
    
    [GRAPHIC] [TIFF OMITTED] 82174.053
    
    [GRAPHIC] [TIFF OMITTED] 82174.054
    
    [GRAPHIC] [TIFF OMITTED] 82174.055
    
    [GRAPHIC] [TIFF OMITTED] 82174.056
    
    [GRAPHIC] [TIFF OMITTED] 82174.057
    
    [GRAPHIC] [TIFF OMITTED] 82174.058
    
    [GRAPHIC] [TIFF OMITTED] 82174.059
    
    [GRAPHIC] [TIFF OMITTED] 82174.060
    
    [GRAPHIC] [TIFF OMITTED] 82174.061
    
    [GRAPHIC] [TIFF OMITTED] 82174.062
    
    [GRAPHIC] [TIFF OMITTED] 82174.063
    
    [GRAPHIC] [TIFF OMITTED] 82174.064
    
    [GRAPHIC] [TIFF OMITTED] 82174.065
    
    [GRAPHIC] [TIFF OMITTED] 82174.066
    
    [GRAPHIC] [TIFF OMITTED] 82174.067
    
    [GRAPHIC] [TIFF OMITTED] 82174.068
    
    Mr. Horn. And our last Federal speaker is Joseph R. Greene, 
the Acting Deputy Executive Associate Commissioner for Field 
Operations, Immigration and Naturalization Service. You have a 
few million clients here and there at borders and in ships. So, 
Mr. Greene, we are glad to have you here.

    STATEMENT OF JOSEPH R. GREENE, ACTING DEPUTY EXECUTIVE 
 ASSOCIATE COMMISSIONER FOR FIELD OPERATIONS, IMMIGRATION AND 
                     NATURALIZATION SERVICE

    Mr. Greene. Thank you, Mr. Chairman. And, Mr. Chairman and 
members of the subcommittee, I thank you for the opportunity 
today to testify concerning the Immigration and Naturalization 
Service's work with local and State law enforcement agencies.
    The INS has always maintained a close working partnership 
of local law enforcement officials, and a number of initiatives 
have greatly enhanced these partnerships and have strengthened 
our mutual effectiveness in protecting public safety and 
security.
    The first initiative I would like to highlight is section 
287(g) of the Immigration and Nationality Act, which authorizes 
the Attorney General to delegate immigration enforcement 
functions to State and local law enforcement officials. 
Although the INS has in the past encountered problems in 
attempts to implement this authority, we stand ready to work 
with any local political jurisdiction on this issue. Since 
September 11th, we have received two such requests.
    Meanwhile, we have worked with our State and local partners 
in law enforcement to better coordinate our respective law 
enforcement authorities to improve public service, and in this 
regard, we at the INS look forward to participating in the 
Attorney General's initiative to be announced later today. We 
fully support his goal for the Department to have a seamless 
relationship between State and local law enforcement agencies.
    A major initiative to better improve the coordination 
between State and local law enforcement agencies and the INS is 
our Law Enforcement Support Center. This was established in 
1994 as a pilot project and currently is deployed in 46 States. 
The LESC allows local law enforcement officials to make online 
inquiries regarding foreign-born persons under arrest during 
the time that the law enforcement agent processes them. These 
queries are checked at our support center against eight 
separate INS data bases, and if it is determined that the 
subject is in the United States illegally, the support center 
will lodge a detainer.
    During fiscal year 2001, the LESC handled almost a quarter 
million inquiries, including 221,507 from State and local law 
enforcement agencies. In addition, in 1998, the Congress 
established the Quick Response Teams in 46 locations across the 
United States. These are teams of special agents designed to 
respond to local law enforcement officials in locations that 
have had little INS coverage in the past. By means of these 
teams, INS has been able to improve its response to local law 
enforcement. During the first three quarters of fiscal year 
2001, QRTs responded to 7,608 requests for assistance, 
resulting in almost 11,000 arrests. In addition, 847 cases were 
presented to U.S. Attorney's Offices for prosecution, mostly 
for smuggling charges.
    INS also participates with State and local law enforcement 
partners in major task force operations across the United 
States. Some of them we have talked about here at the table 
today. The Organized Crime Drug Enforcement Task Force, the 
OCDETF task force, which our colleagues from the DEA have 
mentioned, represent a significant contribution from the INS. 
We are involved in the High-Intensity Drug Trafficking Area 
effort, the Violent Gang Task Force in a number of major 
cities, and we are proud to play an important role in the Joint 
Terrorism Task Force. By the end of this fiscal year, INS will 
have more than 70 full-time agents assigned to JTTF; however, 
since September 11th, easily half of all of our special agent 
personnel have been dedicated to supporting the FBI 
counterterrorism investigations.
    In addition, INS agents participate in at least 50 local 
task forces covering such broad areas as border safety, 
document and practitioner fraud. These are task forces that 
involve INS and other Federal agencies as well as State and 
local law enforcement officials.
    Let me close with a word about training. During fiscal year 
2001, INS trained over 8,000 State and local law enforcement 
officials in such areas as immigration law, policy and record 
systems, as well as joint efforts to address mutual law 
enforcement problems. For the second year in a row, INS has 
partnered with the International Association of Chiefs of 
Police to present its Responding to Alien Crimes seminar to as 
many local agencies as can participate.
    INS recognizes the crucial role played by State and local 
law enforcement officials in establishing our mutual 
responsibilities to ensure public safety and security. We 
remain open and committed to doing whatever we can to improve 
our efforts in this regard.
    Thank you for the opportunity, and I will be happy to take 
any questions.
    Mr. Horn. Thank you very much.
    [The prepared statement of Mr. Greene follows:]
    [GRAPHIC] [TIFF OMITTED] 82174.069
    
    [GRAPHIC] [TIFF OMITTED] 82174.070
    
    [GRAPHIC] [TIFF OMITTED] 82174.071
    
    [GRAPHIC] [TIFF OMITTED] 82174.072
    
    [GRAPHIC] [TIFF OMITTED] 82174.073
    
    [GRAPHIC] [TIFF OMITTED] 82174.074
    
    [GRAPHIC] [TIFF OMITTED] 82174.075
    
    [GRAPHIC] [TIFF OMITTED] 82174.076
    
    [GRAPHIC] [TIFF OMITTED] 82174.077
    
    [GRAPHIC] [TIFF OMITTED] 82174.078
    
    [GRAPHIC] [TIFF OMITTED] 82174.079
    
    [GRAPHIC] [TIFF OMITTED] 82174.080
    
    [GRAPHIC] [TIFF OMITTED] 82174.081
    
    Mr. Horn. And I am now going to lead the Chair to Mr. 
Shays, the gentleman from Connecticut, who is one of the key 
people in the major subcommittee of the Government Reform, and 
we will go at 10 minutes each as we alternate between the 
majority and the minority. So, Mr. Shays, 10.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Chairman, I want to thank you and Mr. Souder and the 
ranking members for agreeing to this tripart hearing here, and 
I want to thank our witnesses. I think I counted nine, and it 
is kind of tough to be at one end or the other and listen to 
all your colleagues speak. And so that is why we are leaving 10 
minutes a side so some of you can jump in when you choose to.
    I think this is a very important hearing, and I appreciate 
the fact that our Federal folks are agreeing to participate in 
the same panel because we want the interaction between Federal 
and our State and local. It seems to me we all pretty much 
agree. The local folks want the information, and the Federal 
folks think they should have it, but it is not happening. So my 
questions are going to be to try to figure out why.
    I am going to state for the record what I choose to state 
whenever I have the opportunity. I believe we are in a race 
with the terrorists to shut them down before they have a better 
delivery system for bio and chemical weapons, before they get 
nuclear waste material and explode it in a conventional bomb, 
and before, heaven forbid, they get a nuclear device, which I 
have to say is a possibility. If there was a nuclear explosion 
in the United States, I would have to say to anyone who asked, 
I am not surprised. That is kind of scary to think of, but that 
is a fact. So that's why it's a war, that is why we are in a 
race, and that is why there is no excuse for not having this 
system work where you all on the local level get this 
information.
    And I also would say to you I wouldn't be surprised if six 
or more planes in one event in one morning are exploded because 
we don't check for explosives in the belly of an aircraft. 
That's the truth. That's the reality. You know it, I know it, 
and the public should be aware of it. And, certainly, the 
terrorists know it.
    My theory is this: Whatever the terrorists know, we should 
be willing to have the public understand. So some of this stuff 
that we basically say is such privileged information is not, 
because the people we don't want to have it know it. The only 
people who don't know it are the public.
    Sorry for the long explanation. Let me get right to it. I 
want to first have the FBI explain to me--and this is not meant 
in an accusatory way--but have me understand why information on 
certain individuals was not shared with the INS and the State 
Department when we talked about visas, and why was it necessary 
in the Patriot Act to pass legislation to require this 
information to be shared?
    Ms. McChesney. I want to make sure I understand your 
question correctly. You are talking about two specific 
individuals or individuals in general?
    Mr. Shays. About individuals in general. There is data that 
the FBI had that the INS was not able to access and the State 
Department was not able to access, and because they weren't 
able to access it, we let people come to this country we 
shouldn't have. In the Patriot Act, we require that information 
to be shared.
    Ms. McChesney. There still is not--I don't want to overuse 
this word--seamless technology between all the Federal 
agencies. I think a lot of people are under the impression that 
State Department and INS and Customs can talk to each other 
technically. We can't do that. So the way we have tried to go 
around that is through our working groups and task forces so 
you have people who sit in the same room and have access to the 
same computers.
    That is not the total answer. It would be a lot more 
effective if everybody had the appropriate technology, and 
hopefully I think that is where we are going.
    Mr. Shays. But the bottom line is this information hasn't 
been shared, and why was Congress required to step in and solve 
this or mandate this information be shared? That is what I am 
having a hard time understanding.
    Ms. McChesney. I think there was a need for more probably 
accountability with regard to the information-sharing, which 
may have motivated that. And I am not familiar with all the 
background with regard to legislation, so I don't want to say 
something I am not aware of.
    Mr. Shays. With DOJ, in your testimony, Mr. Nedelkoff, you 
stated there were 6,000 Federal, State and local and tribal 
agencies or--that are members of RISS Program. There are 17,000 
potential participants. What explains why we are still 11,000 
short, not that everyone would have to, but why wouldn't we 
have more?
    Mr. Nedelkoff. I think there are a couple different 
reasons. Each governing board of a RISS center wants to ensure 
that law enforcement agencies who are partners are credible 
agencies and have a certain level of confidence in these 
agencies sharing information. So the process is somewhat 
selective. Also, I think over the last decade, particularly the 
last 5 years, there has been somewhat of a growth in the member 
of Federal agencies that are partners. Right now there are 
about 12 percent, which represents about 600 different Federal 
entities that are partners. The RISS centers sort of began 
years ago as entities who were concerned with maybe focuses 
like organized crime or drug trafficking and the means for 
information-sharing. There has been growth. There is room for 
more growth, particularly at the Federal level, and we want to 
encourage other Federal partners to become members.
    Mr. Shays. I would like to ask my former colleague Asa 
Hutchinson, you clearly have the advantage of being on this 
side and now where you are now. If you were to list the biggest 
impediments to the sharing of information, is it first the need 
to--a security need, or is it a technology challenge like with 
the FBI saying to us, we don't have the capabilities to share?
    Mr. Hutchinson. Congressman Shays----
    Mr. Shays. I mean, we all want it, so why don't we just see 
it happen?
    Mr. Hutchinson. I think there is a couple of reasons that 
we are not in an ideal world there. We've made enormous 
progress, but we have further to go, and I think part of it, as 
our FBI colleague indicated, was technology, that there could 
be better systems where we can speak to each other.
    But I think it goes beyond that, that there has 
historically been a culture in law enforcement that we, you 
know, have a case we are operating. It is our responsibility to 
get it done. You have to overcome that inherent sense of a 
case, and I believe we've done this in our organized crime, our 
drug enforcement task forces and our narcotics effort. I 
believe we, to a very, very large extent, are sharing 
information, depending upon each other, but I don't think we 
moved that into other arenas.
    And finally, I think there are some legal impediments. I 
mean, I look at the classified material that comes across my 
desk, you know, the Secret, and I'm thinking this is something 
that would be appropriate to share perhaps, but you can't do 
that, you know, and follow the law. And I appreciate--I 
believe, as Mr. Dwyer was talking about, how Homeland 
Security--in maybe having a role in having a clearinghouse to 
make sure information gets to where it belongs. But there are 
some of those legal impediments that perhaps Congress should 
look at as well.
    Mr. Shays. Let me ask our local folks, we can't--there is 
clearly information that the more people who know, the less 
likely it is to be secure. In fact, that is the reason why some 
of us sometimes choose not to be briefed because we don't need 
to know it. And I don't want to take the chance of having the 
opportunity to communicate with my constituents and then 
telling a Member that part of the information I learned at a 
classified briefing, and this part I can share.
    But how can we--I guess it would lead to this. Should the 
local police chiefs be given the same kind of clearance that I 
would have--the difference is that I get elected, and I have 
the clearance. But in other words, should there be a right of 
every chief of police to be given sensitive Federal data, or 
should there be someone else designated within the police 
force, for instance, to receive that? Obviously, it couldn't be 
everyone. It strikes me it couldn't be everyone. How can we get 
sensitive information shared on the local level?
    Chief Timoney. I think I pointed out, it is pretty 
insulting. I have membership on the terrorist task force. My 
detectives get information that work on the terrorist task 
force, get information that they can't share with me that is 
top secret. I mean, that is ridiculous on the face of it. And 
I'm running the Philadelphia Police Department. I should know 
about all things that are going to affect Philadelphia.
    Mr. Shays. You are saying your own people can't share 
information with you?
    Chief Timoney. Certainly there is some information that 
comes across, but if it's top clearance, it's going to be 
shared with those folks that have top clearance. And also 
insulting part is the hurdles you must go through. In 1997, I 
was a member of the Defense Science Board for the Defense 
Department over the summer. I actually quit after 8 weeks 
because I had to leave the various meetings where you had to 
have super duper clearance. I didn't want to be. I was invited 
down, but it took weeks and weeks to get this clearance 
through.
    Mr. Shays. I'm sorry I missed this part when you were 
testifying. Your basic point is people that within--is my turn 
up?
    Mr. Horn. You have about 30 seconds. We can go back to it.
    Mr. Shays. I will just come back. Thank you.
    Mr. Horn. We now yield to the ranking member, Ms. 
Schakowsky from Illinois, and we are glad to have you here.
    Ms. Schakowsky. Thank you, Mr. Chairman. I appreciate all 
of the testimony today, but I want to give a special welcome to 
Chief Ramsey. I am from Chicago. I know that you spent about 30 
years almost in the Chicago Police Department. And also Mayor 
King, a neighbor of ours in Chicago.
    These are really difficult questions when you get down to 
the issue of sharing, it seems to me, and one of the tools that 
we put in the hands of law enforcement, and whose hands exactly 
are they in. It seems to me that one of the things that we have 
been struggling with since September 11th is that balance 
between giving law enforcement the tools it needs and still 
protecting what are so precious about the United States, and 
that is our civil liberties.
    Chief Ramsey--I guess you were in Chicago when we had the 
Red Squad. In the 1970's, I was part housewife, part of a 
community organization that it turns out was spied upon 
secretly by a unit of the Chicago Police Department. So I come 
to this with a kind of heightened sensitivity to the potentials 
for overreaching.
    Now, on the other hand, I am really aware--was it the mayor 
who said there is no national 911? And so clearly, you, at the 
local level, need to have more tools. To the extent that it's 
organizational systems that are failing, we have to improve 
that. To the extent that it's technology that doesn't allow for 
information-sharing, we have to fix it. To the extent that it's 
cultural issues, where we just don't want to share, that may 
happen, or a sense of disdain or disrespect that some of you 
seem to be saying at the local level that you feel.
    But I am trying to understand, is there ever a reason that 
information that is held by the DEA, the FBI, the Justice 
Department, the INS, is there a reason why it should not be 
shared, or, if it is shared, that we make--is it with 
everybody? And I think Representative Shays was trying to get 
at that. Who shares? Who can plug into a RISS system or a LEO 
system and still make sure that this information is treated in 
the sensitive way that it should be?
    So like as Mr. Shays, help me out here. There's got to be a 
balance somewhere. Let me ask maybe first the FBI in terms of 
this information. I think a lot of what we have been hearing is 
that the FBI isn't sharing.
    Ms. McChesney. Thank you. One of your questions is who can 
plug into the RISS system, who can plug into LEO. All of law 
enforcement throughout the country can do that. Members of duly 
constituted law enforcement agencies can do that.
    With regard to is there some information that should not be 
shared, the information that is so classified that you have to 
have the appropriate clearance, it does need to be shared only 
with people who have the clearance, and the chief is correct. 
In some cities where there are joint terrorism task forces, the 
task force members have the clearances, but their chiefs and 
superintendents do not necessarily have the clearances. They 
can ask for the clearances, and we can provide them. This is an 
onerous process, no doubt about that, because those are the 
things--standards set forth by the executive branch for that.
    Ms. Schakowsky. You can see on the face of that would 
create difficulties at the local level. I mean, it would seem 
to me, as Mr. Timoney said, how do you run a police department 
if people who work for you have information that they can't 
tell you?
    Ms. McChesney. I think it would be a very good thing for 
the chiefs to have that--chiefs or someone they would 
designate, whether it be a commander of the detectives' 
division or somebody besides those members within their task 
forces who tend to be patrolmen, detectives and sometimes 
sergeants and lieutenants. But they are not the chief, because 
that person does not have time to participate in the task 
force.
    Ms. Schakowsky. Yes, Mr. Dwyer?
    Chief Dwyer. I just wanted to add that any chief that has 
someone assigned to any type of a task force should have--be 
able to receive that information. I mean, how can you assign 
personnel from your department and not be aware of what they 
are working on? I mean, it comes right down to trust. Is there 
so much mistrust--and as I indicate in my testimony, our 
relationships continuously improve, but the perception is if a 
chief cannot receive information when he has some people or 
personnel assigned to that task force, then it is a real 
concern and a problem, and that's why some chiefs may pull out 
of some of these task forces for that reason. And that's why I 
indicated on the anti-terrorism task forces that they should be 
chaired by both the Federal and local law enforcement 
executive, and I think there would be great improvement that 
way as far as the perception of mistrust.
    But I still have to say that the relationships between the 
Federal and the State and the local authorities are really 
improving at a very rapid pace in the last several months, in 
particular since September 11th.
    Yes, Mayor.
    Mr. King. I have had the experience while mayor and before 
becoming mayor, I headed--you heard reference to the Organized 
Crime Drug Enforcement Task Force. I headed that from the U.S. 
Attorney's Office in the Northern District of Indiana 15 years 
ago. So I have seen task forces work effectively, and I have 
also seen them fail. That was one at the time. It may have 
improved since I was there, but I was in a room of adults 
arguing which Federal agency would get their initials first on 
a form to start a prosecution. So you have at its essence in my 
view, you have a management problem.
    You have a circumstance today where--and I heard 
Congressperson Maloney talk about working off this JTTF model. 
Well, that's what the FBI wants. Your Attorney General wants 
ATTF. And they are distinctions with differences. The Justice 
Department is not yet together on what the form is going to be. 
Before we even get to the integration of these local resources, 
you have before you, in my view--and this has been expressed to 
the Attorney General by the U.S. Conference of Mayors, and been 
expressed to Governor Ridge--you have a classic management 
problem. You have a problem for which you never had a 
structure. Beginning in the 20th century, we didn't have 
standardized time. Why did we get it? Because trains kept 
running into each other. Noon was wherever it was above your 
head wherever you happened to be. And then it finally dawned on 
us, gee, a lot of people dying. We better fix this. We better 
get a system.
    And that's where the problem is. I think first federally, 
choose, pick. You want an ATTF model, you want a JTTF model. 
Personally the mayors support the ATTF. We think it is better 
jurisdictionally. But whatever it is, pick it. Then get rid 
some of these rule 6(e)s and other encumbrances that are 
addressed in the Schumer-Clinton Senate bill. Remove those 
obstacles in terms of the information-sharing. At the end of 
the day, these police chiefs are every bit as trustworthy, and 
that is at its root--every bit as trustworthy. And that is at 
its root. They're every bit as trustworthy as any Federal law 
enforcement official.
    You have to add to that mix mayors and Governors. We're the 
many commanders in chief, and we may rely on law enforcement 
information and know it implicates a public health, a fire 
safety or other.
    Ms. Schakowsky. Let me just ask you there, so do you think 
those security clearances are automatic--should be automatic 
with the job?
    Mr. King. I think the language in the Senate bill 1615 is 
if you are chief law enforcement official within a particular 
area, metropolitan area, if you are the chief elected official 
with appointing authority--some mayors do, some mayors don't--I 
do, for example, appoint my police chief--and a Governor who 
appoints the chief law enforcement authority for the State, 
which would also be the case, I think, in Indiana, 
automatically under the language of that Senate bill, yes, they 
are authorized to receive where necessary rule 6(e) and other 
information. It doesn't mean you get everything happening in a 
Federal grand jury. It's where it's necessary to address a 
particularized problem or threat.
    I think that language works, but the structure--we don't 
have the structure, and that's why a lot of well-intentioned 
people at every level of government are kind of running around 
here. I don't think it is because there's animosity. I think 
everybody wants to fix this. We have never had this before, and 
we need a protocol that we replicate throughout the country. We 
have a classic management problem that lacks a system.
    Ms. Schakowsky. Thank you.
    Mr. Horn. I am going to start some time and then give the 
rest to Mr. Shays, but I want to know the release on 
photographs by the FBI watch list, what are the standards on 
that, and what happens, because it's clear that, let's say, our 
friends in Canada, they are helping us a lot in terms of the 
borders, the friends in some parts of the border, the 
Southwest, Southeast. So I'd be curious what releases there 
are, Ms. McChesney?
    Ms. McChesney. If I understand your question correctly, can 
we be releasing the photographs of individuals on the watch 
list? Certainly, we can where we have them. Some of the 
individuals that have shown up on the watch list are name only 
information, and we can't verify that. What we found is in some 
cases stolen identity. So we might be putting up the photograph 
with the wrong person.
    So we need to be very, very careful about that sort of 
thing, but it is an excellent idea. And the technology has come 
along to where we can do some of that through NCIC.
    Mr. Horn. What about it, Mr. Greene, in terms of the 
Immigration and Naturalization Service?
    Mr. Greene. Thank you, Mr. Chairman. We experience this 
same problem that the FBI does in terms of having named and 
identifying biographical information, but on many occasions not 
having a photograph. Recently, we are getting some assistance 
in that regard by working with the Department of State. Of 
course, when they do non-immigrant visa applications at 
consular offices overseas, a photograph is part of that 
package, and we are working with the Department of State to 
deploy data bases to our ports of entry so that we will be able 
to access photos in addition to the biographical information 
that we currently have.
    Mr. Horn. What do you have with the containers that come 
in--I've got two of the major ports in my constituency, and 
they only do about 1 percent, maybe 2 percent of the containers 
to take a look at it. And what are you planning to do? And 
Customs has the same thing here.
    Mr. Greene. Yes, sir. Customs, of course, has primary 
jurisdiction over cargo and containers as they come in.
    Mr. Horn. Some come in, you know, and some of them have 
died in the containers at sea.
    Mr. Greene. I will tell you since the 11th, we have been 
working very closely with Customs to, first of all, to 
significantly augment our staff along the borders, especially 
at land ports and at airports. Along the land borders 
specifically, we have--and we thank the Governors of a number 
of States who have given us National Guard support. We've 
deployed additional Border Patrol assets to the Northern border 
to free up our inspectors to do the more thorough investigation 
in primary and secondary at the land ports in order to avoid 
precisely those kinds of problems with smuggling as we have 
seen in the past.
    Mr. Horn. What I would like to know is how difficult would 
it be to deputize local police detectives, give top officers 
security clearances, because the FBI certainly would do the 
search, I would think. And the joint task forces cochaired, 
chaired by local law enforcement representatives seems to me to 
be absolutely needed if they are going to do this on either in 
the drug field or the smuggling and all the rest. Believe me, 
it's a lot of it.
    Mr. Greene. Yes, sir. The delegational authority is a very 
complex issue, as we found out on the two occasions when we 
worked with local jurisdictions to try to bring it to pass. 
There is a wide range of authorities that--law enforcement 
authorities that immigration officials, special agents and 
Border Patrol agents have from making simple arrests based on 
warrants to multiple arrests without warrant, from determining 
whether a person is a derivative citizen, to the particular 
kind of visa that they have.
    Local jurisdictions have been daunted sometimes with 
complexities of the immigration law, but most specifically, 
local law enforcement officials have been concerned about the 
impact that their officers having immigration law enforcement 
authority might have on their other duties. As you might 
imagine, the Immigration Service doesn't have the greatest 
representation in some of the communities where detectives and 
uniformed officers have to work, and some jurisdictions have 
been concerned about the chilling effect that having delegated 
immigration authority might have on people from the community 
coming forward to complain about other crimes.
    Nevertheless, we are open to working with any jurisdiction 
that is asking for it. We are open to identifying the specific 
kinds of authority that they can have. The law allows us great 
flexibility with respect to the sorts of authority that can be 
delegated, the kinds of training we can provide, and the 
specific language of the formal agreement.
    So I think it's a work in progress. It is one that we are 
certainly not closed to, and we intend to move forward with the 
two requests that we have already received since September 
11th.
    Mr. Horn. Now, on the deputizing of the local police, when 
did that go where they can't do it, it's got to be turned over 
automatically to the Border Patrol or what? Was that a legal 
ruling or what, if we get rid of it or put a law on it?
    Mr. Greene. It goes back, sir, to interpretations by the 
courts as to control of immigration being an exclusive Federal 
responsibility, and it was only in the amendment to 287(g) that 
the Congress acted to delegate that authority or have the 
potential to delegate that authority to local law enforcement 
officials.
    Mr. Horn. We need to pursue that.
    And, Mr. Shays, gentleman from Connecticut, take the rest 
of my time here.
    Mr. Shays. Thank you.
    Mr. Chairman, I would like to ask our chief from Baltimore, 
just as an example--first I want to say--actually I want to ask 
Chief Ramsey a question. Do you feel you received total 
cooperation from the Federal Government in sharing information, 
given that this is the Nation's Capital?
    Chief Ramsey. I believe I'm getting the information they're 
allowed to give me. That doesn't mean I'm getting all the 
information I need, and there is a difference, and I think that 
has been the basis of this discussion. There is some limits on 
the information.
    And in response to a question asked earlier, is there some 
information that perhaps we don't need, I would say yes. I 
don't need to know the source, for example, the name of an 
informant. I don't need to know that. I just need to know if 
it's credible. But I need to know the information.
    So there are some things that need to be worked out, and I 
am confident if we sat down and really talked through these 
issues, that we'd be able to do that. But there's always some 
information that is being withheld simply because of this issue 
of clearances, and that simply can't be allowed to continue.
    Mr. Shays. You have a very unique problem given that you 
are in charge of the Nation's Capital, and it seems to me we 
should be working overtime to try to solve in the short run 
that problem. I'd be happy to have some of my committee staff 
sit down with you. If you had specific suggestions to make to 
the staff, I'd be happy to----
    Chief Ramsey. The other part of this for our local police 
chiefs, I am willing to do anything that I need to do to keep 
our city and Nation safe and secure, but I have another 
responsibility for patrolling the neighborhoods, and when I 
have to take resources to protect certain areas of the city, 
there is blowback from that in our neighborhoods. And if I 
don't even have the information to justify why it's being 
done--I'm doing it because I'm asked to do it--that just 
creates another problem where it makes it very, very difficult 
to justify the use of resources to protect some Federal parts 
of the city as opposed to using all of my resources out in the 
neighborhoods of D.C.
    Mr. Shays. Commissioner Norris, we have used as an example 
that you don't need weapons of mass destruction in the typical 
biological sense or a nuclear device. You could simply explode, 
detonate, a chemical agent, say, through the Baltimore tunnel. 
What kind of cooperation do you need from the Federal 
Government to make that less likely?
    Chief Norris. If you are referring to the train wreck, that 
still has not been determined if that was an accident or a 
terrorist act this summer, and this is our concern. And the 
cooperation we need--besides, I think we need fencing. 
Philadelphia is in the same boat. Many East companies have a 
lot of chemicals stored right in the urban center, and there 
needs to fencing and some security done by the railroad that 
would help us.
    But more than anything, if there is a going to be a nuclear 
attack, biological or bombs and bullets, it is still going to 
be delivered by people, and what we need and what we are asking 
for is human intelligence. That is the only way we are going to 
deter this. If they are going to hijack a plane, detonate a 
nuclear device, it's still going to be done by human beings. 
And this is what is so important to the police of America. When 
we have these discussions, you are looking at the homeland 
defense. It's us. It's not the military. We, the police of 
America, are the ones that are going to protect this country 
from the next terrorist attack. And the fact that--Commissioner 
Timoney said that is insulting. It usually is just insulting. 
Now it's dangerous. We need this information. We need it now. 
We can't wait any longer. We can't have discussions 2 years 
from now. The police chiefs of America need to have this. We 
can't have detectives who have classified information, who 
can't tell their chiefs--I think he has 7,000 cops in Philly. 
He doesn't know where to put them.
    You know, this is what we are talking about, and I am 
trying to stress this at every hearing. More than anything we 
need--all this other stuff is great. Technology, when it comes, 
will be just wonderful. Right now we are taking on a sheet of 
paper. I will take any pictures they have on Polaroids. This is 
all we need. We just need the information. The technology will 
catch up. We are in a race with the terrorists, and if we don't 
act now, we are going to be in deep trouble. We need human 
intelligence. The only thing I would like to come out of this 
hearing with more than anything else is we need to get going on 
exactly what all of us have spoken about, is a much more free 
information flow back and forth.
    Mr. Shays. I would like before this hearing ends--and I 
will come back to it--but I would like you to give me your top 
two things that you would want to see come out of this hearing. 
But I would like to, when I have my next turn, just literally 
go down the row here. But I think what you would agree with, 
and perhaps maybe not, and I need to have you tell me, if we 
have so many chiefs around the country, there are some that 
don't need information, there are some that do. How do we 
determine which chiefs need information?
    Chief Norris. You are never going to know who needs it, 
sir. If you're looking at some big cities here--but the chief 
of Portland, ME, had them in his town. We're not going to know 
where it's going to come from. So police chiefs around America 
need to be cleared. If they don't pass their background check, 
they don't pass their background check, and then you deal with 
it that way. But right now, we all need the potential to be 
told. And the example I can give--my counterpart is here from 
the FBI. We got information--it is not a secret, it was on the 
news--but she was able to relay information to me that we acted 
upon. I didn't need to know the source. I didn't need to know 
where she got it from, but there was going to be an anthrax 
attack in Baltimore on a certain day and time. By getting me 
this information, we were able to act upon it and protect our 
city. I didn't ask her where it came from. I didn't ask what 
the CI's name was. I don't care. I don't care today. But by 
doing this, she protected the people of my city, and this is 
what we are asking for nationwide.
    The problem is we don't know what is going to happen next. 
It could be in one of the major cities you're looking at, but 
it could be in some small town, and this is the problem.
    Mr. Shays. What I would love to have explained to me, which 
I'm still uncertain about--how much time do I have left--I am 
unclear as to how some parts of your department are clear and 
some parts aren't. And I guess, Chief, you were----
    Chief Timoney. Well, whether it's Philadelphia or New York, 
we would assign a detective or detectives, but it would take 
anywhere from 6 weeks to 10 weeks for them to get their 
clearance. They would be assigned over there, but they would be 
given routine work until that clearance came through.
    Mr. Shays. So the people that have clearance are actually 
assigned to details and operations done by the Federal 
Government?
    Chief Timoney. They work over at the terrorist task force 
which is situated within the local FBI office.
    Mr. Shays. But they are in a sense basically working in 
conjunction with the FBI, and the FBI is basically enabling 
them to have that information, but it stops just with the 
people who are working with them?
    Chief Timoney. Correct. To be fair, you do get--there's 
certain information that you do get that can be shared that 
doesn't come back with the tag ``top classification.'' But if 
it comes back with the tag ``top classification,'' then by law 
it can't be shared, or if it comes from the CIA to the FBI 
terrorist task force and says, you can't discuss it, it's only 
top clearance, then they can't discuss it. And if you have 
private conversations off the record with the FBI agents or the 
ASACs, they will tell you the exact same thing.
    Mr. Shays. It is easy for me to visualize why you as a 
chief--if your people are involved, why you as a chief should 
be involved. But the terrorists are basically operating with an 
intent to get this information as well. It would strike me that 
they could basically infiltrate a very small community, be in a 
position of sensitivity, just as organized crime does the same 
thing, and then gain access to information that can be very 
destructive. So you can be incensed, Commissioner, that this 
isn't fair, but I could also say it would be pretty stupid to 
share it with the enemy. I am trying to know where we kind of 
draw the line.
    Chief Norris. Maybe we misunderstand each other. We deal 
with this information every day in a different way. I mean, we 
all deal with confidential informants, life-and-death 
situations, and we have to weigh decisions every single day. 
And we act on information we get to prevent a murder perhaps; 
is that going to blow the informant's cover. But the fact is by 
withholding information, is that solving the problem?
    No matter who--Hansen had a clearance, Ames had a 
clearance--they leaked information. Everyone has got their 
problems. There are a millions reasons to say no. We have to 
find a reason to say yes and start moving this forward. I have 
3,500 police officers. They don't all need this information, 
but I certainly need it. I mean, just the top people in the 
agencies need it, with a select few others, and that's all we 
are asking for.
    Mr. Shays. I would agree that the chiefs would need it. And 
does every chief in the entire country get it, or do we draw a 
line somewhere with those departments that are actually working 
with Justice?
    Chief Norris. I would say no. The problem is there are 
18,000 police agencies in America. Some have seven police 
officers. But I think Commissioner Timoney's recommendation was 
you start with the 52 largest law enforcement agencies in 
America. That compromises 60 percent. We could help the smaller 
agencies. But there are 52 American agencies that you may want 
to start with.
    Mr. Shays. My time is running out. I'll be happy to work on 
legislation and try to put this on a fast track with my 
colleagues on both sides of the aisle.
    Chief Timoney. If I could give you one example. Both in 
1993, when I was up there when the first bomb went in the World 
Trade Center, and the last one, 14 or 15 of those 19 guys lived 
in and around the New York City area. A local cop could have 
very easily pulled them over and stopped them for a variety of 
reasons, a missing license plate or something like that. 
There's a need to get that information out there.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Horn. I yield 10 minutes to the gentlewoman from New 
York Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. And I want to tell 
you on behalf of my constituents in the city that I represent, 
we all appreciate very much what you have done, what your 
counterparts have done. I tell you what you said earlier, the 
911 goes into the police department, the fire department, the 
emergency medical responders, and they perform brilliantly. And 
there's really a limited amount that you can do in the Federal 
Government but support the localities in their efforts in 
fighting crime.
    I believe Mr. Norris spoke about, or Mr. King, my comments 
on trying to support the JTTFs, which basically is an 
antiterrorism unit, both domestic and international, that right 
now gives security clearance to the members of that 
organization, and it is supposed to be working with the local 
groups to share the information that we are talking about. And 
I am not wedded to any particular form, but it's just one 
that's been--I believe the first one was in New York City, and 
it seems to be working well.
    Ashcroft came out with another antiterrorism task force, 
but it's my understanding that it is just Federal, but we don't 
need to have two. You should decide which is the one you are 
going to support, and I personally believe that the Federal 
Government should pay the salaries of people who participate in 
it. Every time you take a police officer off the streets in New 
York, that's a cost to our people in protecting our people, and 
they need protection. And we are constantly having crises. And 
I think INS should be--their staffs should be paid, and 
resources should go into--whether it's the Ashcroft model or 
JTTF model, we have to get down to the local governments 
sharing the information on a local level.
    I would like to put in the record an article that was in 
the New York Times yesterday in which local officials accused 
the FBI of not cooperating.
    Earlier, Mr. Norris, you were given examples of how they 
gave you information, and you were able to respond. Our own 
Mayor Giuliani was particularly disturbed about he believed the 
FBI knew about anthrax attacks--that he learned about it in the 
press. And I would like to ask Ms. McChesney to respond and 
give your point of view. And you are quoted in the article, and 
you said, we are fighting the terrorists, not each other, and 
you are talking about how they are cooperating. But we have the 
example of the mayor of Reno saying that he learned from local 
television that there was an anthrax attack on a Microsoft 
office, and he claims the FBI knew about it.
    And then the classic example at the end is one that was 
referred to earlier where they were out in--the Afghan man was 
under FBI surveillance for weeks, and the chief said, I don't 
have to know what's going on in L.A., but I think I am entitled 
to know what's going on in Portland. And I would like her to 
respond that.
    Very briefly, I had an experience of my own when I was a 
member of the city council, probably when I felt the most 
ineffective in my life. There was a drug den on West 107th 
Street. I complained to the police over and over and over 
again, wrote letters, called them, and they didn't do anything. 
I was furious. I felt very ineffective, and my constituents 
were extremely upset. And I couldn't even go near the street 
that people didn't run up and try to sell drugs to me as a 
member of the city council.
    And about 6 months later the police commissioner called me 
about 12 midnight and said, Maloney, we are busting them 
tonight. We had a 6-month undercover operation, and we are 
going to go in there and clean up the street. And they went in, 
and they had filmed everybody, put them all in jail, and we 
turned the street into a playground. And it was a great 
community story, but I felt very much like the police officers 
feel right now in why didn't you tell me. I was so furious. I 
was so angry. And he said, we had no need to tell you, and you 
may have told a constituent as they were pressuring you, don't 
worry, the police are doing an undercover, and it might have 
gotten out. And I just give that as an example of the very 
delicate balance.
    I believe Mr. Norris mentioned Mr. Ames and Mr. Hansen. 
Probably the most important asset we have is human intelligence 
and the need to protect it. We in Congress have doubled our 
budget for human intelligence. We are weakening it, and I think 
that we do need a balance. But our heroes, which are police 
officers, our mayors and people on the front lines really need 
to know this information.
    So I would like to give Ms. McChesney the opportunity to 
respond to this article that is highly critical of the FBI 
withholding photographs, withholding information on anthrax. I 
am wondering did you even know about it? Maybe they think you 
are smarter than you are. But it is a serious allegation that 
valuable information could be withheld from people that could 
get out there and help people.
    Ms. McChesney. Just to step back a minute to your 
suggestion relative to the salaries for task force members of 
those representatives from local law enforcement, right now 
what we do with regard to the joint terrorism task forces is 
there is overtime payment made by the Federal Government. Their 
automobiles are provided. The computers are provided. The space 
is provided. The cell phones and the communications devices are 
provided to those members. Now, that doesn't take care of their 
salaries.
    One of the things that we have seen is that some police 
departments have been reluctant to provide members to task 
forces because they have their own resource problems, and 
because sometimes a task force--I will use Chicago as an 
example--the members of our task force there would be working 
on things that occurred in the city of Chicago. And some of the 
suburban police departments did not feel it was cost-effective 
to send an officer even on a part-time basis into the city 
limits of Chicago to work with the joint terrorism task force 
because they didn't see a direct connection between a 
particular suburb and Chicago. So I did want to mention that.
    With regard to the article, local law enforcement should 
not learn from television something that's going on, nor should 
we in the FBI. There are times we don't have the information 
that people think we do have. There are times that we do have 
information relative to sources, and where the sources are 
protected or that come from foreign governments, we can't 
provide that information. However, we can and always have 
provided information that relates to planned criminal activity 
that we are aware of. We find ways to do that under 6(e) that's 
been allowed; that if information has come forward to a grand 
jury about other criminal activity, that can be provided, and 
it has been provided.
    Now, I can't guarantee you that each and every case that it 
has. That's a training issue. We need to make certain that we 
train our agents and our analysts that protecting information 
first--that's what we teach them on day 1--but when it is 
appropriate to share and how you do that.
    And the other point is making sure that the right officials 
and the major city chiefs--and our Director has met with them 
as recently as 2 weeks ago--have the appropriate clearances; 
that it's not an easy thing to do, but it's not a difficult 
thing to do in the sense that we can do that. And I think it's 
an excellent idea.
    Mrs. Maloney. OK. I would like if you could comment on the 
recent press conference on an incident in the Chicago airport 
regarding an individual who was discovered to be carrying 
several knives. And it's my understanding that the local law 
enforcement released the individual prior to contacting the 
Federal law enforcement. And could you explain to me the 
procedure which is in place and what, in fact, occurred in that 
incident?
    Ms. McChesney. I am not aware of all the details of that 
incident, and I can get them for you if you would like. The 
procedures and my knowledge of that particular incident, having 
talked to the FBI agent involved, the FBI agent involved was 
with the local police, so I am not certain as to the accuracy 
of the article that you're seeing.
    Mrs. Maloney. And it's my understanding that some of the 
information the FBI has is not necessarily their information, 
and therefore they do not control the ability to pass the 
information. And could you explain how, in fact, it works?
    Ms. McChesney. That's correct. There is information that we 
do receive from other sources, some information that we've 
received from FISA sources, Foreign Intelligence Surveillance 
Act, from technical means, that because we didn't generate the 
information, because the source wasn't ours, the person who 
originates the information or actually gathers it has control 
over how it's disseminated. They may give it to us, but they 
may not allow us to further provide it. But as I said, if it 
pertains to criminal activity that's planned that we can 
specifically provide to our law enforcement partners, that's 
what we are to do.
    Mrs. Maloney. There's been some reference before to this 
legislation that will, quote, allow the sharing of information, 
but many people talk about turf. If the turf is there, the 
sharing is not going to take place. And I'd like all of the 
officials to respond to that legislation. Will it in fact make 
a difference? Right now, cannot the FBI declassify information 
or you can sensitize the information? So how in the world is 
that changing the situation? That's what I'm saying, you know.
    Ms. McChesney. We can--if we are the originator of this, 
the information, we can change its classification. But what we 
have often done through our national threat warning system, 
which has been work being quite effectively for the last 5 or 6 
years, is to provide communications through telecommunications 
networks which actually have a terror line and the information 
which is provided below that can be disseminated to any law 
enforcement source.
    Mrs. Maloney. Very briefly, I'd like to ask Asa Hutchinson, 
we've all heard about the opium trade in Afghanistan. First of 
all, are you a member of the JTTFs, the DEA, and are you 
sharing the information that you're finding out about 
Afghanistan and the drug trade.
    Mr. Hutchinson. Thank you, Congresswoman Maloney.
    The answer is that the Attorney General set up the task 
force within the U.S. Attorney's Office, and the DEA is a part 
of that and participating in it.
    Mrs. Maloney. So you are in the Ashcroft task force but not 
the JTTF on the local level?
    Mr. Hutchinson. I believe that is a correct statement. If 
the FBI----
    Ms. McChesney. Let me explain that. The antiterrorism task 
force was a directive of the Attorney General, and I believe it 
was dated September 13th or 14th. Prior to that, the JTTF's 
been in existence for a number of years. What the questions 
were from all the agents in charge of the field--FBI field 
offices, and I was one at that particular time--was how are--
how do you marry these two terrorism task forces? Are you 
creating a duplicative effort in some cities?
    So we went back to the Department of Justice for guidance 
on that, and that was that the antiterrorism task forces where 
there are JTTFs would be an overlay to those, but where there 
are not task forces around the country, that the U.S. Attorney 
makes certain that all the players have a seat at the table and 
have access to the issues and discussion and information that 
they would need.
    Mr. Hutchinson. Could I----
    Mrs. Maloney. OK. So you're not with the JTTFs but you're 
with Ashcroft and the Ashcroft task forces? I'm trying to 
understand the structure.
    Mr. Hutchinson. That's correct, Mrs. Maloney.
    Mrs. Maloney. Does the Ashcroft structure include the local 
police?
    Mr. Hutchinson. I believe that is available to the U.S. 
Attorneys to bring in the local police. I think that it was set 
up with that kind of flexibility, and that's my understanding.
    But let me come back, if I might, to the larger point that 
you're making. I do believe that the DEA has a very important 
role to play in any counterterrorism task force because of the 
human intelligence that we're able to bring to the table when 
we're working with drug informants. Whenever we see cells that 
operate--that engage in drug trafficking but also send money to 
terrorist organizations, that is information that can tie into 
a counterterrorism task force. So I'm delighted that the 
Attorney General did include us in that, and I think it would 
be mistaken if we didn't recognize the nexus that exists 
between the narcotics trafficking and many terrorist groups 
that are operating out there.
    Mrs. Maloney. Are you sharing your information from the 
Afghanistan investigation?
    Mr. Hutchinson. Absolutely. And that's another point that 
you were addressing, is the sharing of intelligence 
information, and historically we've been able--any information 
that we get in terms of terrorist activity to pass along 
immediately to the FBI. We have passed along scores if not 
hundreds of leads to them both in foreign arenas as well as 
here in the United States, and we'll continue to do that.
    I think the legislation that's passed will continue to 
break down those barriers and allow us not just to get 
information from the intelligence sources that might relate to 
law enforcement activities but any information we get, even if 
it's protected 6(e) that pertains to terrorist activities, 
we'll be able to pass along; and that is a very, very important 
part of the effort that we all want to engage in.
    Mrs. Maloney. Thank you very much. My time has expired.
    Mr. Horn. The gentleman from Connecticut and then Mr. 
Cummings. OK. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman, and thank 
you, Mr. Shays.
    You know, as I'm sitting here listening to all of you--
first of all, I want to thank you all for being here, all of 
you. I believe with all my heart that everybody, all of us, are 
in a situation that we've never been in before and it's very 
unique. September 11th set a whole new tone for law enforcement 
and the things that law enforcement--that we have to deal with. 
I think just the mere fact that September 11th happened has 
caused us to kind of have to look differently at how law 
enforcement is done in this country, and I think that's part of 
the problem.
    One of the things that a reporter asked me a few minutes 
ago, he says, well, what effect will this hearing have? Will it 
make a difference? And I had to tell him that I think that it's 
already making a difference. I think that the October 5th 
hearing where our Commissioner Norris testified and Mayor 
O'Malley testified, it's already making a difference. But I'm 
not sure, and let me tell you why I say that, say that I think 
it's making a difference.
    It sounds like the Attorney General is, according to Mr. 
Nedelkoff, supposed to be making some announcements this 
afternoon. I don't know what they'll be, but it's something, as 
he said, will help the Federal Government work more effectively 
with law enforcement.
    Ms. McChesney, I don't know when you were appointed, but 
the idea that you're in the position that you're in, that says 
something. Somebody's listening. And the fact that the Mayors--
National Conference of Mayors did what they did, that's had 
some effect.
    So I guess the question becomes, are we moving fast enough 
and are we moving in a way--and one of the things that we talk 
about in the Congress is that we want taxpayers' dollars to be 
spent effectively and efficiently. So it seems to me that we 
will want to maximize cooperation so we can have the most 
effectiveness.
    Now, you all haven't talked about this a lot, but one of 
the things that I'll tell you--to our mayors and police chiefs, 
I'll tell you one of the things that worries me as an elected 
official and as a citizen and a resident of Baltimore is I see 
our commissioner--I see what he has been effectively been able 
to do, done a great job, stretching resources to the nth degree 
before September 11th. Now we find ourselves in a situation 
where we've got policemen that have to work overtime, we've got 
all kinds of extra things that we would not normally have to 
deal with, and so what I'm moving toward is this.
    When I listened to you, Ms. McChesney, talk about the Joint 
Task Force on Terrorism, I was wondering what Commissioner 
Norris's reaction would be to that and does that really help, 
for example, the city of Baltimore? I mean, our resources are 
already being stretched and how does that help us or does it?
    Chief Norris. I believe it would help us because if we're--
if we were going to ask for intelligence if we create this task 
force, what it would allow us to do is have better access to 
the very information we would need to protect the city. So it 
might be--if I gave a couple of police officers a task force, 
it would be a good investment as far as I'm concerned.
    But I think what we're not asking for, because we don't 
want to come in with a big--you know, down on the table with a 
big wish list, but, when we do, it was very expensive. I mean, 
the first pay period after the attack was $2 million--not for 
the city of Baltimore, just in overtime. And that's--our usual 
expenditure is about $400,000. And Philadelphia had the same 
thing.
    So I mean this is a very, very expensive proposition for 
us; and, as I said before, we are the homeland defense; and I 
think the people in the government have to start thinking that 
way and providing funding for the police of America in every 
city. And mayors and police chiefs in this country aren't going 
to be able to do it without some additional funding.
    Mr. Cummings. One of the things that I remember when we had 
the hearing on October 5th, a local elected official who had 
dealt a lot with the FBI called me and said, you know, the 
problem probably is that the FBI doesn't necessarily trust the 
local police, and that's been said here. Commissioner Timoney, 
you know, I think I've got to get a feeling of what happens a 
lot of time. I don't know whether it's distrust--and this 
doesn't even apply to just law enforcement. I think a lot of 
times what people do is they have their own turf and anybody 
else that sort of treads on that turf, they feel a little bit 
uncomfortable.
    Then I think an extra element is added in law enforcement 
in that you're dealing with such sensitive issues. And, like 
you said, Commissioner Norris and Commissioner Ramsey, Chief 
Ramsey, you're dealing with things that are really life and 
death. So I'm trying to figure out--I mean, you've heard from 
Ms. McChesney to our mayors and police commissioners, I mean, 
do you feel, first of all, that we're moving fast enough? And, 
second of all, do you think that we can truly get past that 
turf trust problem? Commissioner Timoney.
    Chief Timoney. Yes. There are obstacles, and that's clearly 
one of--the whole idea of turf based, and we've dealt with 
that. I dealt with that my entire career in New York and 
Philadelphia, and it's understandable. You know, you want to 
make the pinch, you want to lock up the drug dealer, the 
organized crime figure, and that's all well and good, but this 
is different. This is war, and it's not who gets the headlines, 
you know, who gets to march the guy out in handcuffs. This is 
war. And so we need to put aside our egos and, you know--and 
really cooperate and coordinate for the better good, and that 
includes sharing intelligence.
    So they'll say yes to that, but then they'll look under our 
legal obstacles, and there are these high security obstacles, 
and there are far too many obstacles and far too many excuses.
    To get to the crux of the matter, no, we're not dealing--
moving fast enough. Here we are now. It's more than 2 months--
and I'm dead serious about this. The next piece of information 
I get will be the first piece.
    Mr. Cummings. Commissioner Norris.
    Chief Norris. I agree. I mean, again, and I want to stress 
when people--as we've gone forward and testified in the media, 
people try to make this that, you know, it's a local--you don't 
get along with your particular count--that's nonsense. I get 
along with my particular--the Baltimore ASAC. We get 
information that she's allowed to give us. We speak almost 
every day. Our relationship is fine.
    The problem is, as Commissioner Timoney just said, the 
rules have got to change for this. You know, we are at war. 
Things are different. And the impediments that are before us 
now, be they legal, be they security clearance, whatever, these 
rules are made by people that can change these. These rules can 
be changed tomorrow.
    What kind of frightened me, as I was hearing before, is a 
lot of stuff is, well, we work well together, we have this in 
place. We had all of these things in place before September 
11th. Obviously, they didn't work. We need to change radically 
and rapidly. We need this information now, and the few things 
we're asking for need to be done quickly.
    So, in short, no, we're not moving fast enough, but again 
it's from the very top. It's got to be changed at the agency 
head level, Attorney General, Congress. This is where the 
decisions have to be made to change this for us.
    Mr. Cummings. Anybody else? Mayor King.
    Mr. King. I think something else has to be factored in 
pretty quickly. Information is a two-way street. We keep 
thinking about everything, you know, emanating from the Feds to 
the locals. Part of the problem is we don't have a protocol in 
place for the locals to, in a systematic way, get information 
they develop at the street level to factor into decisions being 
made more globally in law enforcement as well. That's why 
having a protocol in the system is important.
    The problem so far has been what they're not getting, what 
have we lost in terms of information being generated on 
America's street corners and getting that factored into a 
national system. Again, against this backdrop, it's ridiculous 
to be cutting local law enforcement block grant dollars. That's 
one of the Federal programs we can use as mayors, police 
commissioners to pay overtime to these police officers.
    Mr. Cummings. Now that information flow going from the 
locals to Feds that you just talked about, would that--do you 
think these Joint Terrorism Task Forces, would that solve that 
problem?
    Mr. King. Well, again, pick one or the other. I mean, the 
fact that the DEA is not even at the table in a Joint Terrorism 
Task Force is frightening to me. I mean, I don't get it. I 
really don't get it. But pick one, whatever it is, so you have 
the table set for the local, the Federal, the State people that 
need to be there, whatever geographic division you use.
    One of the problems with the JTTF is you have fewer FBI 
field offices than you do judicial districts and so--in my 
circumstance, the northern half of the State of Indiana is a 
judicial district, but the field office for the State of 
Indiana is the entire State, and it just--you start running 
into some, you know, geographic, times, etc., difficulties. But 
the mayor's position is pick one, have local at it, and ATTF 
was modified. The first version, no local. A letter came out 
about 10 days thereafter--I'm going to say September 28th and 
there was reference made to local, but I talked to my U.S. 
attorney who was sworn in I think September 24th, and he--you 
know, he's saying well, my goodness, what am I going to do? 
Have every local law enforcement person in the northern half of 
Indiana in a meeting with me? How do I do this?
    And that's some of my--in my testimony some of the 
suggestions--that's all it is--suggestions to solve this 
management problem.
    Mr. Cummings. Thank you very much.
    Mr. Horn. I thank the gentleman; and now I'm delighted to 
give 10 minutes to our new Member in the House, Diane Watson, 
the gentlewoman from Los Angeles, CA. Glad to have you here.
    Ms. Watson. Thank you, Mr. Chairman.
    I'm hearing and listening and learning from all of you who 
are on the front line of the first responders. What is 
troubling me now is it looks like we're duplicating 
assignments. We're talking here about a Joint Task Force on 
Terrorism, and we have Tom Ridge, the Chief of Homeland 
Security, and I take it it's very meaningful, the fact that 
you're homeland security.
    What's really troubling is that here's a person who was--
who left the Governorship to come here, and apparently his 
assignment is not that clear. He is without resources and 
without the authority. Would not a joint task force be 
duplicating what he should be doing? So what I'd like to hear 
from you is what you think the duties are and how you would 
relate to the Chief of Homeland Security.
    I've got to tell you an anecdote, because I'm sitting here 
saying why is it we're so troubled over sharing information? 
Because as I went through my Ambassador training, I remember 
they took us in a C-130 out to a huge, desolate area. There was 
one building there, and it looked like something from Galactica 
3000. We went into the building, and there were two guards 
standing by a door that was very thick. We were to go in that 
room with no windows, and the commander was in there, and each 
one of us had a red folder saying ``highly classified.'' We 
went into that room, we read the information in that folder, we 
gave it back to the commander, and when we got back the spouses 
wanted to know what was said. We can tell you, but we'll have 
to kill you. So we never related the information there because 
we knew how sensitive it was.
    And I cannot understand why we couldn't share highly 
sensitive undercover information with those of you who are 
responsible for enforcing our laws and tell you, if you tell, 
we'll have to kill you. You know, in jest I say that, but have 
we lost confidence in each other along the way? Have we 
protected our turf in such a way that we are isolationist and 
those of you who could really help us in the field have no 
clue?
    So could you respond to how you see yourselves relating to 
the Chief of Homeland Security and what you think about that 
position?
    Chief Norris. The one thing we did bring up to the FBI 
Director, because this came up in our major cities conference 
in Toronto regarding homeland security, the way we think we 
should relate to homeland security is, much discussion has gone 
on to create the office, kind of unclear what he's going to be 
responsible for, but what we haven't seen as a group is any 
talk of local police chiefs being hired, either current or 
retired, as part of the cabinet for homeland defense. And, once 
again, local police in America are the homeland defense. So how 
are they going to structure whatever's going to come without 
the input of people who know how it operates?
    It seems like they have gone back to the same drawer and 
taken out Federal people for military people and not had police 
people at the front end, which is part of what our concern was; 
and that was put forth by the FBI Director to bring up to the 
Vice President and the Homeland Defense Director. But we share 
the same concerns because maybe--we hope it's not another 
office that's just been created.
    You know, I'd like to see Governor Ridge be given real 
authority to question and to push, much the same way we do in 
our own police departments between bureaus. Because, believe 
me, this culture of not sharing goes on within agencies where 
detectives and police departments don't talk to the uniformed 
people who don't talk to narcotics people unless you force 
them. You make them talk to each other, and you ask them 
pointed questions because you're their boss, and that's much 
what we are looking for from the Office of Homeland Defense.
    If he were able to ask all of us, including the police, the 
FBI, DEA, ATF, INS, whoever sits at that table, what are you 
doing? What happened with this lead? What did you do with this? 
When was the last time you went out on this lead? What were 
your results? You question this person? What was the followup? 
What do you know about this to the other agencies. That's what 
we envision. Whether it happens or not is another story, but 
the people don't know and the public doesn't know that's how we 
run our police departments now.
    There's been a sea change in law enforcement in the last 8 
years, and we've broken down cultural barriers within our own 
departments, and we'd very much like to see this happen at the 
Federal level and certainly be willing to help Governor Ridge 
in his new job.
    Mr. King. Congresswoman, the U.S. Conference of Mayors' 
position has been articulated in writing and is recommending 
that Governor Ridge be given budget and budget authority in 
order to have what we have believed to be the wherewithal 
necessary to perform his function which I think is a tad 
broader. As essential as the law enforcement piece is of 
homeland security, homeland security in our view is a tad 
broader than law enforcement. It incorporates public health 
response, it incorporates, of course, the fire and the EMT, 
which is not a law enforcement piece. So we do see some value 
in it.
    I would also like to state, at our meeting of November 7 
last week, Mayor O'Malley, myself, McCory from North Carolina, 
Bost from New Jersey, and our president, Marc Morial from New 
Orleans, we met for about an hour and 15 minutes. We discussed 
the same agenda as presented here today by the conference, and 
we were very gratified at the response, and he's made public 
statements the same. So I think we need to be supportive, but 
he does, in our view, need budgetary authority to get it done 
to accomplish his objective of coordination.
    Mr. Hutchinson. Congresswoman Watson, if I might add, I 
think these comments are very, very appropriate under the 
circumstances. I do believe that Governor Ridge has an 
extraordinarily important role in coordinating the Federal 
functions, and many of the issues that are raised here I think 
he'll have to grab ahold of and sort through, but I don't 
believe it's any substitute for the Joint Terrorism Task Forces 
and the operational task forces that are out there. And even 
though we have Governor Ridge and his huge responsibilities, we 
certainly need those task forces to put the things into place 
at the local level, because that's more operational, similar to 
the drug enforcement task forces that are existing in so many 
different jurisdictions. They do not substitute for what even 
our drug czar will be doing at the national level.
    So the task forces are very important, even though Governor 
Ridge is doing very, very important work in the national 
coordination.
    Ms. Watson. How would you suggest the relationship be 
between the task force and Governor Ridge's office?
    Mr. Hutchinson. Well, I mean I think that the task forces 
again are operational in the sense that you have all the 
participating agencies that are working a particular case. 
You've got them, what, in 30--36 different areas of the 
country, and so they're doing the nitty-gritty work. I see 
Governor Ridge's responsibility as to making sure that we've 
got the Coast Guard doing what it's supposed to be doing, the 
DEA, FBI, all the intelligence-gathering agencies doing what 
they're supposed to be doing, making sure we're investing 
adequate budget resources as well as making sure--and the point 
that everybody's made here is that the local law enforcement of 
the States is a very important part of this homeland defense.
    Ms. Watson. Would the task force in your opinion work under 
the aegis of Governor Ridge or would they be a separate entity? 
Who would they report to? Would Governor Ridge be on the team?
    Mr. Hutchinson. Well--and the FBI might want to jump in on 
this since they take the lead in counterterrorism--but 
certainly I think in terms of policy Governor Ridge and his 
office would have a significant amount to say as to the 
jurisdiction, the implementation, the work of the task forces. 
But at an operational level again they would be handled by the 
separate agencies and the agencies that participate in that 
task force.
    Ms. Watson. Every day something occurs, and we really are 
moving by the seat of our pants. We're creating, you know, the 
process as we go along, the legislation. We've never done this 
before. So your input would be very valuable to all of us. 
Those of you who have been out there as first responders can 
really help us as we, I would hope, have a Cabinet position 
assigned to the Chief of Homeland Security. You know, we need 
to continue this forever. It ought to be part of our structure. 
So this will be very, very helpful as we try to design and as 
we all learn how to do this. Chief.
    Chief Ramsey. Ma'am, I think part of the problem is that 
there's not a clear definition of roles and responsibilities 
for all these different agencies now. Things have changed and 
changed dramatically, but I don't know if we've really thought 
through exactly what it is we want these various agencies to 
do.
    I agree with Director Hutchinson that a large part of 
homeland security would be coordinative in nature, but that not 
only means law enforcement. Because we've learned from our 
recent experiences that first responders are sometimes health 
care professionals, and we need to be able to coordinate public 
safety in the broadest sense to know exactly what it is we're 
doing, why we're doing it, what we need--all those kinds of 
things need to come together.
    Right now, there is no one single place that really 
coordinates all these various aspects of this terrorist threat 
that we're facing, and that in itself is an awesome 
responsibility to carry out and--but I think it would be 
appropriate for an office like the Office of Homeland Security 
to be able to do it, but if they're going to be charged with 
that responsibility then he needs to have the authority that 
goes along with it.
    Because there are turf battles that are fought every single 
day. Someone's got to be the referee in those turf battles and 
make the decisions so that the best interest of this country is 
always foremost in everyone's mind. And if he is not given the 
authority to be able to actually force agencies to do what it 
is that needs to be done, then, quite frankly, the office will 
be fairly useless and just add another layer of complexity and 
confusion that we already have, and I don't think we need that. 
That's like adding another task force to task forces that we 
already have.
    I mean, if--whether you call it JTTF or ATTF, call it 
something, but it ought to be one of them, and it ought to 
cover everything that needs to be covered. I need another 
meeting to go to like I need a hole in the head. So, I mean, we 
just don't need this. So someone needs to sit down and talk 
this through and really decide what is it we need to do, what 
resources do we need, and let's just do it.
    Ms. Watson. In light of bioterrorism and the potential of 
germ warfare, certainly public health has to be part of the 
team, and, as I said, you know, by the seat our pants these 
things are being created. It's you who I think have an 
obligation to help us as we create. We don't want to create a 
monster that has to be destroyed by us later on. What we want 
to do is create a position that can be effective and can be 
far-reaching and comprehensive and as secretive as it needs to 
be, as confidential as it needs to be, with all of you on the 
team understanding what classified information is.
    You know, I remember--I was a little baby--but a slip of 
the lip can sink a ship. And you know, we've got to understand 
what this war arena is that we're in now. So I think everyone 
takes an oath, you know, to be able to hold back information, 
not make it public if we're going to fight this war and 
succeed.
    So I think this kind of discussion to me is very healthy, 
Mr. Chair, and I think as a result of this hearing we might 
want to suggest to the President and to the Governor these are 
some ideas that came out of this hearing and from the people 
who are on the first line.
    I thank you very much, and anyone who has any more to say, 
you can get in on someone else's time if you can, but thank 
you. This has been very informative to me.
    Mr. Horn. Thank you.
    Let me just clarify some of the administrative side of 
this.
    Governor Ridge, one, was a Governor. No. 2, he's a very 
close friend of the President and was a possibility for Vice 
President of the United States. When the President announced 
his appointment in the Chamber of the House of Representatives, 
it was the greatest applause I have ever seen here, whether it 
be Presidents or Prime Ministers or what. He got a standing 
ovation.
    So he comes there with knowledge of the House, he's been a 
chief executive, and he's in the Cabinet because the President 
put him there, and I think that's a very useful operation. And 
woe betide to other people in the Cabinet, Ridge will have the 
ear of the President.
    So I would hope that the Attorney General, that the 
Secretary of State--because they've got a major problem here in 
terms of photos and all the rest. So I would think Mr. Ridge 
doesn't have to have a lot of people running around, but all he 
has to do as chief--this is what we need to do, bang, sign it. 
And that's what he'll do, and I think he's an outstanding 
person, and now is the time to be helpful and to get on his 
wagon, and I think that's one of the things.
    I'm going to ask my colleague, who's a very able 
questioner, to give most of the questions, and we might have 
one or two, but let's see the gentleman from Connecticut.
    Mr. Shays. I thank the gentleman for yielding.
    I'd just like to start with you, Commissioner Timoney, and 
just give me your two things that you would like to come out of 
this hearing, and if there's duplication, that's fine. That 
just reinforces what we need to do.
    Chief Timoney. Yeah. I would think the two things, one, the 
whole issue of commit to a system where there is better sharing 
of intelligence, that's No. 1, and breaking down some of the 
barriers that are much more I think excuses than anything else. 
That's No. 1.
    No. 2, I think there's a real need to recognize and 
acknowledge that we are, in fact, the homeland defense and that 
there's an obligation on the part of the Federal Government, 
specifically the Department of Defense, to allocate some kind 
of funding to help offset the enormous costs so far. And it's 
the sense I get from Washington that this is going to be a 
long-term project, 2, 3 or 4 years. I don't think most major 
cities can sustain themselves.
    Mr. Shays. Thank you.
    Mr. King. A structure that facilitates an ongoing two-way 
sharing of information between Federal and local law 
enforcement and, second, a funding source directed to local 
government in order to pay for doing what we have to do in 
order to be, in fact, the front line of homeland defense.
    Chief Norris. Security clearances for the major city chiefs 
and designated detectives within their intelligence divisions 
so we can share information from both FBI and INS, and again 
the funding. If this is going to be several years, there's no 
way our city or other cities can sustain this level of policing 
without help from the Federal Government.
    Mr. Shays. Thank you.
    Chief Ramsey. Clearly defining roles and responsibilities 
of all those charged with some responsibility in dealing with 
this terrorist threat I think is the single thing that, if 
that's done, would solve many of the other problems that we've 
been talking about. Because with that comes a clearer 
understanding as to what information needs to be shared, who 
needs to be a part of that, and all the things that go along 
with it. That includes the kind of equipment and the budget 
issues. All those things would begin to kind of fall in line if 
someone were able to kind of oversee the big picture and 
clearly coordinate everyone's efforts in that regard.
    Mr. Shays. Is that one?
    Chief Ramsey. That's actually--that's a big one.
    Mr. Shays. So you're going to go for a big one that has 
many parts?
    Chief Ramsey. One that has many parts. Because I think that 
without that the rest of this is done in a very fragmented way 
that really is not real helpful.
    Mr. Shays. I'm just going to pursue this a second. If we 
define roles, you think a lot of good things will happen. But 
then give me your list of two things that you want once a role 
is defined.
    Chief Ramsey. The necessary clearances so that information 
can be shared, dissemination of information, and the equipment 
that we need in order to be able to be--we'll carry out 
whatever mission we're given.
    Mr. Shays. So equipment I'll put down----
    Chief Ramsey. Yeah.
    Mr. Shays. Asa.
    Mr. Hutchinson. Thank you, Congressman.
    Two things I would mention out of this hearing is, one, I 
hope we do not forget the drug nexus to terrorism. I think that 
we're rightfully focused on preventing terrorism and obtaining 
all the information we can in that arena, but I think there 
will be a growing picture of drugs funding part of the 
terrorism that takes place, has taken place around the world.
    Second, we certainly need to expand the opportunity to 
bring in the hundreds of thousands of law enforcement at the 
State and local level into our counterterrorism effort. That's 
been expressed here. Obviously, information needs to be 
provided at different levels to help them do their job.
    Please remember that, as we do more background checks, we 
have to have more resources. Right now, it takes a significant 
number of months--I won't tell you how many because it would 
depress you--to bring on an agent or a secretary in the DEA.
    Mr. Shays. We've had hearings on this. It's one of the 
crucial elements of this. It can take years, literally.
    Mr. Hutchinson. And if we're going to, and rightfully so, 
expand the number of people that have access to information, 
please don't forget we have to have resources to do those 
background checks.
    Mr. Shays. I'm going to basically put down as one that you 
want the clearances to be done more quickly.
    Mr. Hutchinson. Well, I--no. I'd like you to put down two. 
The first one is the drug nexus.
    Mr. Shays. I have that. I have that. Very clearly, the 
terrorists are using drugs to fund their activities to the 
Taliban and so on. Is that your point?
    Mr. Hutchinson. Yes.
    Mr. Shays. OK.
    Mr. Hutchinson. Thank you.
    Chief Dwyer. Congressman, as I indicated earlier in my 
testimony, I firmly believe that the anti-terrorism task forces 
should be co-chaired by the Federal authorities and also a 
local executive. I feel strongly that there should be a 
clearinghouse to guarantee that information that's scattered by 
the Federal authorities, that does not continue to be 
fragmented, that this clearinghouse is set up, the information 
is then horizontally disseminated to local authorities.
    I'm just outside Detroit. I was with the Detroit Police 
Department for 23 years. It's important to me, being the 
largest suburb in Oakland County, MI, that I receive 
information that relates to my city quickly and not several 
days later. And I think that if we set up a system of 
clearinghouse and we disseminate that information quickly to 
the local cities that need that information, that would be a 
great improvement.
    Mr. Shays. Thank you.
    Mr. Nedelkoff. I would say first is to identify the 
acceptable vehicles and/or mechanisms for the exchange of 
intelligence information, particularly----
    Mr. Shays. Say that again? I'm sorry. Do what?
    Mr. Nedelkoff. Actually identifying the vehicle to 
communicate, especially locally. We've talked about task forces 
and different technology and so forth. Even if it varies among 
community perhaps, but identifying that vehicle for the sharing 
of information.
    Second, as someone who's spent the vast majority of his 
career at the local level, I understand the local needs, and I 
have heard the officials representing local government talk 
about that they've received all the information that they're 
allowed to receive. So I would say to reevaluate the rules that 
are prohibiting the sharing of information between Federal and 
State and local.
    Mr. Shays. OK.
    Ms. McChesney. Trust, technology, and training. I know 
that's three. But trust, we talked about that before. That was 
one of the questions.
    Having been a police officer for 7 years before I joined 
the FBI, I know what the perception is among many law 
enforcement officers out there that the FBI is withholding 
information. Being able to see it from both sides, I was able 
to see that the FBI probably didn't know quite as much as local 
law enforcement thought that we knew.
    That being said, we do know some things that we're sworn to 
protect, but, as I said before, where it relates to important 
issues regarding criminal activity it would provide that.
    The second part is technology. Some of you may not be aware 
that, as agent in charge of a field office as I was, I could 
not communicate with the U.S. Attorney's Office via e-mail or 
with DEA or with my other Federal counterparts. We just didn't 
have those capabilities, and we still don't. Likewise, I 
couldn't send an e-mail to the chief of police in various 
locations. It just--that technology didn't exist.
    We do have law enforcement on line that does need to be 
funded, continually funded. I think in order to at least stay 
state-of-the-art that's a $7.5 million bill for the next year.
    Finally, training, which is something that we recognized 
early on, is we have this forced multiplier effect of 600,000, 
700,000 officers throughout the country, but do they know what 
it is that you're looking for relative to some of these 
terrorists? Is it the same sort of suspect as a drug dealer or 
bank robber? Not necessarily. And so I think it's incumbent on 
us, the FBI, to make sure that we get that training out there 
through whatever vehicles we have, whether it's e-based 
learning, satellite training, actually holding classes and 
having interactive learning.
    Thank you.
    Mr. Shays. Thank you.
    Mr. Greene. Thank you, Mr. Chairman.
    I think it's important, No. 1, in any system that we set up 
for information and intelligence sharing to ensure that the 
loop is circular, that it's not going one way from the Federal 
Government to the local law enforcement agencies but that we do 
establish a system that feeds on itself and that builds on the 
joint expertise and the intelligence of the two components.
    I think I'll yield my----
    Mr. Shays. Can I just ask you, is it possible to have that 
kind of system and feel confident and secure?
    Mr. Greene. I think we have some good examples of that 
within the framework already with HIDTA and OCDETF.
    Mr. Shays. HIDTA and OCDETF?
    Mr. Greene. Yes, sir.
    Mr. Shays. Those sound like Middle East names to me here.
    Mr. Greene. Those are the drug task forces that Director 
Hutchinson referred to earlier. There are some good lessons 
there in terms of how it can be--how we can build on the flow 
of information.
    I would say that my second number is one that I would like 
to yield to my colleague from the FBI since she took three.
    Mr. Shays. Very good. Thank you. I like that cooperation 
and coordination. Thank you.
    Thank you, Mr. Chairman.
    Mr. Horn. I don't want you to name the ones that I'm going 
to ask, but I am hopeful that the FBI and related agencies have 
good linkage with our various number of allies, especially in 
this situation of western civilization making a proper way to 
deal this work together or it won't be successful, like Canada, 
Scotland Yard and so forth. So give us a little hope here that 
you're doing the best you can to do that because, as I 
remember, you have people in every Embassy.
    Ms. McChesney. We do. We have people in about 40 different 
locations around the world, including those places that you've 
just mentioned. Our legal attache program--and we kind of 
followed on the heels of DEA with regard to that because they 
have people in various foreign countries as well--has been 
absolutely essential since September 11th. We've had people in 
various countries who've not had a day off, who've been working 
12-hour days over there because we only have small numbers of 
people there. So any support that we could have with regard to 
enhancing those numbers would be greatly appreciated.
    Mr. Horn. Have you got the computer work that would get 
those--either photos or age or whatever--so that's going I hope 
across the Atlantic and the Pacific and everything else in 
order to get that fast? Because we're in a time where it's 
going to be very fast. If that nut over there is talking about 
a nuclear weapon, all of us ought to be alert.
    Ms. McChesney. We've been able to use some technologies to 
be able to transmit photographs very quickly. Some of it's very 
basic technology facsimiles, but we're getting there.
    Mr. Horn. Now, do you feel--and you don't have to name the 
names now, but we could get them privately. Do you feel that 
agencies in the rest of the executive branch, either military 
or civilian, are they sharing properly with the FBI? Because 
we've heard a lot about, well, gee, the FBI doesn't agree with 
it. Well, what about the other ones? Do they put into the FBI 
data base?
    Ms. McChesney. I haven't become aware of any particular 
issues or complaints with regard to that. As I indicated 
before, as agent in charge of the FBI Chicago field office and 
with regard to our Joint Terrorism Task Force, we had input 
from other Federal agencies. They were part of the task force 
as well. So the information flowed there. But where it 
disconnected with higher level police executives, as the issue 
was pointed out, that needs to be corrected.
    Mr. Horn. I'm going to yield 1 minute for Mrs. Maloney. She 
has a last question.
    Mrs. Maloney. A lot of the problems were the INS. A lot of 
the terrorists were in violation of the immigrant status. I'd 
like to ask Mr. Greene, what you think is the INS's weakest 
point, and I'd like to ask the law enforcement people to 
respond also to this question. I'm considering dropping a bill 
later this week which would address deputizing local law 
enforcement via a memorandum of understanding, and it would 
allow the local law enforcement to be granted the arrest powers 
to take an individual into custody who has an outstanding INS 
violation, and I'd like everyone to respond to that.
    Also, I understand that the INS computer system of those in 
violation is not available to local law enforcement, and I'd 
like to know if you think having access to that would help you.
    Then, last, to Mr. Hutchinson who talked so eloquently 
about being part of this joint task force on the local level, I 
understand that DEA has been invited to join every joint task 
force but often turns it down because they don't have the 
resources. So how do we get over that? Should we fund the joint 
task forces and have them pay the salary of the police officers 
and the people who participate to guarantee their 
participation?
    Finally, a very important point that Mr. Dwyer has raised 
eloquently throughout this hearing is having a co-chair. You 
obviously need a Federal co-chair, or chair at least, to 
guarantee the Federal communication but then to honor the 
importance of the 670,000 police officers who are the eyes and 
ears who are really the effective arm of making this work.
    I'd like to ask Ms. McChesney, what you think of Mr. 
Dwyer's idea, but I'd like first to start with the INS because 
that appears to me to be the weakest link in this whole deal 
and how do we address it?
    I open it up to everyone to throw in their comments and to 
particularly respond to the computer access and the ability to 
make arrests with the local people for INS violations.
    Mr. Greene. Thank you, Congresswoman Maloney. I really 
appreciate the opportunity to deal with these issues.
    Of the 19 hijackers we have identified, only 2 who are in 
illegal status in the United States, and so all of them--our 
records also reflect that all of them entered the United States 
legally with visas that they had obtained legally from U.S. 
consulates overseas. So in terms of the vulnerabilities the 
obvious point to be drawn or the obvious conclusion to be drawn 
is that front loading the screening process is important. It 
starts overseas with the information that is available to 
consular officers when they do the examinations and make the 
determinations as to who's going to get visas into this 
country.
    The question of the data systems and the number of people 
who are outside of--who are in violation of immigration law 
that have access to State and local law enforcement officials, 
we feel that the law enforcement support center does a very 
good job in terms of allowing local law enforcement officials 
access to the INS data bases. That is simply a matter of using 
a screen that already exists and is available to local law 
enforcement officials in 46 of the 50 States, by means of 
technical adjustments to the screens in the remaining four 
States. Those States can have access to that data base as well. 
That checks a variety of INS systems, and it has proven itself 
to be successful in terms of identifying criminal aliens or 
identifying people who are here in illegal status.
    We also have assisted in the National Crime Information 
Computer System of all of the prior deported felons, which also 
allow local law enforcement official access to that data.
    The training issue is important, and we believe that before 
we embark on a process of identifying and delegating 
immigration authorities we need to dialog with local law 
enforcement as to specifically the types of authorities that 
are involved. Because training requirements are important. It 
is--the amount of training that's required to pick up someone, 
identify and arrest someone who already has an outstanding 
order of deportation as compared to the amount of training 
involved to determine whether a person is illegally in the 
United States--and let me give you an example.
    A person who comes to the United States on a tourist visa, 
who then marries a U.S. citizen, who then applies for a 
permanent residence status in the United States, who may have 
U.S. citizen children already here, these are training 
situations that need to be gone over with officers to whom we 
delegate authority, and those are in some ways some of the 
simplest of the problems that we face.
    So as we embark down the road--and the INS, as I said, is 
open to dealing with and enforcing the provisions of the law 
that would allow the Attorney General to delegate such 
authority. As we go down that road, we need to be very 
methodical about the kinds of authorities that we're talking 
about and the kinds of training that will be involved.
    Mrs. Maloney. Anyone else in law enforcement would like to 
comment on that idea?
    Mr. Horn. Are you done----
    Mrs. Maloney. No. I want him--OK. Let him.
    Chief Timoney. Just on your suggestion, your second 
question----
    Mr. Horn. Yes and no to Mrs. Maloney. Because you say 
you're putting in a bill in----
    Mrs. Maloney. I want to know what they think about it, what 
they think about INS----
    Mr. Horn. Yes or no. Go down the line.
    Chief Timoney. I had a separate comment.
    Mrs. Maloney. OK.
    Chief Norris. We would be in favor of it in Baltimore. Just 
by deputizing our intelligence division, you more than double 
the INS agents in the State of Maryland. So we would very much 
like to help.
    Chief Ramsey. I couldn't give a yes or no. I'd have to see 
the bill. I would have some reservations. Many of my 
communities, it would be very sensitive for us if we served in 
that capacity, particularly our Latino community, Asian 
community and others. So I would argue that we need to be very 
careful in terms of what we really do as local law enforcement 
officers in just checking--randomly checking status of 
individuals which is different from having access to 
information of people who perhaps are wanted. So if you ran a 
name check, you could determine it.
    Chief Dwyer. I would be in favor, I believe, with the 
stipulation that you specialize the training. I think the 
training is necessary. You wouldn't have to train every 
officer. You'd train a cadre of officers from various 
departments to be able to specialize in that area.
    Mr. Hutchinson. In response to your question--did I 
interrupt somebody--Mrs. Maloney, on the DEA and the terrorism 
task force, I'm not aware of any instance where we've turned 
our participation down. Certainly I don't think that's 
appropriate. We're spread thin, as you mentioned, but we'll 
make the commitment necessary in this great national effort. 
And I do think it's important to recognize the role again that 
I spoke of. Thank you.
    Mr. Horn. Some have wanted for years to separate the INS, 
to have services versus enforcement. What is the feeling within 
the organization itself?
    Mr. Greene. Thank you, Mr. Chairman.
    The Commissioner has a proposal that he is reviewing with 
the Department that we believe reflects the concerns that many, 
many Members on the Hill have had about the confusion sometimes 
that results from the current structure; and I think it is the 
intention of the administration to present that soon.
    Mr. Horn. Thank you.
    Mrs. Maloney. Could Mrs. McChesney answer my question about 
the co-chair----
    Ms. McChesney. Yes. The recommendation was that there be a 
co-chair of the Joint Terrorism Task Forces. The task forces 
really aren't boards per se. They're investigative entities 
that are governed, if you will, by memorandum of understanding 
between the participating agencies; and, because of that, the 
heads of the agencies that sign into that all have a say on 
what goes on. That exists currently.
    Another thing that exists in the larger terrorism task 
forces such as New York and Los Angeles is that executive level 
or management officers participate with management 
responsibilities depending on the size of the task force. So 
you do have some oversight there that's already in place.
    Mrs. Maloney. And you also have the question of resources. 
In a city like New York anytime you take anyone off the street, 
it's a resource drain.
    Commissioner Dwyer----
    Chief Dwyer. I'm not sure if I would was support it or not 
by the response. I'm still looking for a response in a positive 
sense as far as a co-chairing of the Federal authority and a 
local executive.
    Mr. Horn. Any last word from anybody? If not, I will return 
to the gentleman from Connecticut, and then I want to read out 
the staff we have from the three subcommittees who spent a lot 
of time and will be spending a lot more time when they write 
the report from all the help.
    I was really impressed by each of you where you really--Mr. 
Norris in particular, where you've gone through it very 
wonderfully, I think, and we need more of that to get things 
running.
    So let me just thank the staff: J. Russell George, staff 
director and chief counsel for Subcommittee on Government 
Efficiency, Financial Management and Intergovernmental 
Relations; Chris Donesa, staff director, Subcommittee on 
Criminal Justice, Drug Policy and Human Resources; Lawrence 
Halloran, staff director and counsel for Subcommittee on 
National Security, Veterans Affairs and International 
Relations, Mr. Shays' subcommittee; Bonnie Heald to my left, 
deputy staff director for the Subcommittee on Government 
Efficiency, Financial Management and Intergovernmental 
Relations; Amy Horton, professional staff member for 
Subcommittee on Criminal Justice, Drug Policy and Human 
Resources, Mr. Souder's; Mark Johnson, clerk for Subcommittee 
on Government Efficiency, Financial Management and 
Intergovernmental Relations; Conn Carroll, clerk, Subcommittee 
on Criminal Justice, Drug Policy and Human Resources; Jason 
Chung, clerk, Subcommittee on National Security, Veterans 
Affairs and International Relations; Jim Holmes, intern, 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations.
    On the minority staff, for Ms. Schakowsky and Mrs. Maloney, 
David McMillen, professional staff member; Jean Gosa, minority 
clerk; and the two court reporters, Lori Chetakian and Nancy 
O'Rourke.
    With that, we thank you all for coming.
    [Whereupon, at 12:27 p.m., the subcommittees were 
adjourned.]
    [The prepared statement of Mr. Mueller and additional 
information submitted for the hearing record follow:]
[GRAPHIC] [TIFF OMITTED] 82174.082

[GRAPHIC] [TIFF OMITTED] 82174.083

[GRAPHIC] [TIFF OMITTED] 82174.084

[GRAPHIC] [TIFF OMITTED] 82174.085

[GRAPHIC] [TIFF OMITTED] 82174.086

[GRAPHIC] [TIFF OMITTED] 82174.087

[GRAPHIC] [TIFF OMITTED] 82174.088

[GRAPHIC] [TIFF OMITTED] 82174.089

[GRAPHIC] [TIFF OMITTED] 82174.090

[GRAPHIC] [TIFF OMITTED] 82174.091

                                   - 

</pre></body></html>
